Q

i

PROVIDED TO
QUINCY ANNEX ON

No.

SEP 0 3 2020
IN THE

FOR MAILING

BY

SUPREME COURT OF THE UNITED STATES

ANTHONY ROGELIO GRIEGO - PETITIONER
VS.
MARK S. INCH, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS,
RESPONDENT(S).

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

APPENDIX A

t

Case: 19-13916

Date Filed: 06/05/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13916-J

ANTHONY ROGELIO GRIEGO,
Petitioner-Appellant,
versus

SECRETARY, DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of Florida

ORDER:
Anthony Griego moves for a certificate of appealability (“COA”) and leave to proceed in
forma pauperis in order to appeal the denial of his 28 U.S.C. § 2254 petition for habeas corpus.
To merit a COA, he must show that reasonable jurists would find debatable both (1) the merits of
an underlying claim, and (2) the procedural issues that he seeks to raise. See 28 U.S.C.
§ 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000). Because Griego has failed to satisfy
the Slack test for his claims, his motion for a COA is DENIED.
Griego’s motion for leave to appeal in forma pauperis is DENIED AS MOOT.

/s/ Charles R. Wilson
UNITED STATES CIRCUIT JUDGE

i
No.

IN THE
SUPREME COURT OF THE UNITED STATES

ANTHONY ROGELIO GRIEGO - PETITIONER
VS.
MARK S. INCH, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS,
RESPONDENT(S).

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

APPENDIX B m

Case 3:17-cv-00066-LC-CAS Document 66 Filed 08/26/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION

ANTHONY ROGELIO GRIEGO,
Petitioner,
v.

Case No. 3:17cv66-LC/CAS

MARK S. INCH, Secretary,
Florida Department of Corrections,
Respondent.

ORDER
This cause comes on for consideration upon the Report and
Recommendation of the United States Magistrate Judge (ECF No. 60)
dated July 1,2019, recommending that the petition for writ of habeas
corpus filed pursuant to 28 U.S.C. § 2254 be denied in part and dismissed
in part. The parties have been furnished a copy of the Report and
Recommendation and have been afforded an opportunity to file objections.
I have made a de novo determination of the timely filed objections.
Having considered the report and recommendation and the
objections thereto, I have determined that the report and recommendation
should be adopted.
Accordingly, it is ORDERED as follows:

Case 3:17-cv-00066-LC-CAS Document 66 Filed 08/26/19 Page 2 of 2
Page 2 of 2

1. The Report and Recommendation (ECF No. 60) is adopted and
incorporated by reference in this order.
2. The petition for writ of habeas corpus filed by Petitioner Anthony
Rogelio Griego (ECF No. 7) pursuant to 28 U.S.C. § 2254 as to Grounds 1
through 9 is DENIED.
3. Ground 10 of the amended petition is DISMISSED for lack of
.jurisdiction.
4. Petitioner’s motion to conduct discovery, for financial assistance to
hire an expert, for appointment of counsel, and to supplement the record
(ECF No. 58) is DENIED.
5. A certificate of appealability and leave.to appeal in forma pauperis
are DENIED.
4. The Clerk shall enter judgment and close the file.
DONE AND ORDERED this 26th day of August, 2019.

si L.A. Collier
LACEY A. COLLIER
SENIOR UNITED STATES DISTRICT JUDGE

Case No. 3:17cv66-LC/CAS

«

. J>

Case 3:17-cv-00066-LC-CAS Document 67 Filed 08/26/19 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
ANTHONY ROGELIO GRIEGO
VS

CASE NO. 3:17-cv-00066-LC-CAS

MARKS INCH
JUDGMENT
Pursuant to and at the direction of the Court, it is
ORDERED AND ADJUDGED that the Petitioner take nothing and that this action
be DENIED. A certificate of appealability and leave to appeal in forma pauperis are
DENIED.
JESSICA J. LYUBLANOVITS
CLERK OF COURT
August 26. 2019
DATE

/s/ Monica Broussard
Deputy Clerk: Monica Broussard

• -

PROVIDED TO
QUINCY ANNEX ON

No.

SEP 03,2028
IN THE

FOR MAILING
BY

SUPREME COURT OF THE UNITED STATES

ANTHONY ROGELIO GRIEGO - PETITIONER
VS.
MARK S. INCH, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS,
RESPONDENT (S).

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

APPENDIX B (Ti

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 1 of 80

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION

ANTHONY ROGELIO GRIEGO,
Petitioner,
v.

Case No. 3:17cv66-LC/CAS

MARK S. INCH, Secretary,
Florida Department of
Corrections,
Respondent.

REPORT AND RECOMMENDATION TO DENY $ 2254 PETITION
On January 19, 2017, under the mailbox rule, Petitioner Anthony
Rogelio Griego, proceeding pro se, filed a petition for writ of habeas corpus
pursuant to 28 U.S.C. § 2254. ECF No. 1. Pursuant to leave of court, an
amended petition was filed on March 16, 2017. ECF No. 7. The
Respondent was ordered to file an answer, motion, or other response to
the petition. ECF No. 8. On December 20, 2017, Respondent filed a
'

motion to dismiss the § 2254 petition as untimely. ECF No. 20 (with
exhibits). That motion was denied on June 14, 2018, and Respondent was
directed to file an answer. ECF No. 31. On September 11,2018,
Respondent filed a motion to dismiss contending that two of Petitioner’s

4*

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 2 of 80
Page 2 of 80

claims were unexhausted, thus creating a mixed petition. ECF No. 38.
Petitioner filed a reply to the motion to dismiss on November 15, 2018.
ECF No. 41. On January 3, 2019, the second motion to dismiss was
denied and Respondent was directed to file an answer to the amended
§ 2254 petition. ECF No. 44. Respondent filed an answer on February 27
2019, with record exhibits. ECF No. 47. Petitioner filed a reply and
appendix to reply on June 14, 2019. ECF Nos. 57, 59.
The matter was referred to the undersigned United States Magistrate
Judge for report and recommendation pursuant to 28 U.S.C. § 636 and
Northern District of Florida Local Rule 72.2(B). After careful consideration
of all the issues raised, the undersigned has determined that no evidentiary
hearing is required for disposition of this case. See Rule 8(a), R. Gov.
§ 2254 Cases in U.S. Dist. Cts. On June 19, 2019, Petitioner filed a motion
to conduct discovery, for financial assistance to hire an expert, for
appointment of counsel, and to supplement the record with material not
presented in the state court. ECF No. 58. Petitioner previously filed a
similar motion on May 23, 2018, which was denied. ECF Nos. 30, 33.
Petitioner’s current motion, ECF No. 58, should also be denied.
For the reasons set forth herein, the pleadings and attachments
before the Court show that Petitioner is not entitled to federal habeas relief

Case No. 3:17cv66-LC/CAS

i>

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 3 of 80
Page 3 of 80

and grounds One through Nine of the amended § 2254 petition should be
denied. Ground Ten should be dismissed for lack of jurisdiction.
Background and Procedural History
Defendant was charged by Amended Information filed on November
6, 2007, with Count One, DUI Manslaughter of Gerran Clayton Copeland in
Santa Rosa County, Florida, on August 19, 2007, in violation of sections
316.193(1) and 316.193(3)(a), (b), (c)(3)a, Florida Statutes. Ex. B1 at 25. 1
He was also charged with Count Two, leaving the scene of a crash
involving a death in violation of section 316.027(1 )(b), Florida Statutes, and
Count Three, resisting an officer without violence. Id. After a plea of guilty
as charged to the offenses, Defendant was sentenced on April 23, 2008, to
13 years in prison for Count One, 8 years in prison for Count Two,
consecutive to the sentence in Count One, and 270 days in jail for Count
Three, concurrent to the sentence in Count One. Ex. B1 at 31, 42-48.
Petitioner appealed to the state First District Court of Appeal and his
counsel filed an Anders brief.2 Ex. B4 at 7. Petitioner was given leave to
file a pro se brief. Ex. B4B. Another initial brief by different counsel was
1 Hereinafter, citations to the state court record, “Ex.
refer to exhibits A
through 12 submitted in conjunction with Respondent’s answer. See ECF No. 47.
2 Anders v. California. 386 U.S. 738 (1967) (requiring appointed counsel who
finds an appeal to be wholly frivolous to advise the court but submit a brief referring to
anything in the record that might arguably support an appeal).
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 4 of 80
Page 4 of 80

filed pursuant to Anders. Ex. B4C. The appellate court affirmed per curiam
without written opinion on February 25, 2010. Ex. B5. The mandate was
issued on March 23, 2010. Ex. B6. See Grieao v. State. 29 So. 3d 1121
(Fla. 1st DCA 2010) (table).
On May 24, 2010, Petitioner, with counsel, filed a motion for
modification of sentence. Ex. D1 at 4-18. No formal order disposing of the
motion appears in the record. However, circuit court notes indicate
Petitioner was given a hearing on a motion for modification of sentence on
June 29, 2011, and the motion was denied on that date. Ex. D1 at 42.
On February 16, 2012, Petitioner filed a petition for writ of habeas
corpus in the First District Court of Appeal alleging ineffective assistance of
appellate counsel.3 Ex. C1. The petition was denied on the merits on
March 8, 2012. Ex. C2. See Grieao v. State. 81 So. 3d 615 (Fla. 1st DCA
2012) (mem).
Petitioner filed a Motion for Postconviction Relief pursuant to Florida
Rule of Criminal Procedure 3.850 on March 22, 2012, under the mailbox
rule, in which he alleged fourteen grounds for relief. Ex. D1 at 47-77. An

3 The claim raised in the petition alleging ineffective assistance of appellate
counsel was: failing to raise as fundamental error a claim that Petitioner was denied due
process in the sentencing hearing, after his plea, when the court imposed a harsher
sentence based on consideration of Petitioner’s continued assertion of innocence to
leaving the scene of the crash. Ex. C1.
Case No. 3:17cv66-LC/CAS

;>

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 5 of 80
Page 5 of 80

order was entered on May 16, 2012, striking the pro se motion for
postconviction relief with leave to amend to encompass all the postconviction matters Petitioners sought to raise. Ex. D1 at 80. Petitioner filed
an Amended Motion for Postconviction Relief on June 29, 2012, Ex. D1 at
84-119, and a “Final Amendment to Defendant’s Previously Filed
Amended’ Motion for Postconviction Relief with Incorporated Memorandum
of Law,” alleging fourteen grounds, on May 9, 2013.4 Ex. D1 at 160-97.
The postconviction court entered an order on February 17, 2014,
setting an evidentiary hearing On all of Petitioner’s claims except ground
two, which challenged the adequacy of the plea colloquy. Ex. D2 at 22629. Counsel was appointed, Ex. D2 at 227, and an evidentiary hearing was
held on January 27, 2015. Ex. D4. The post-conviction motion was

4 The grounds raised in Petitioner’s final amended motion for post-conviction
relief were: (1) ineffective assistance of defense counsel (IAC) for misadvice re
sentence; (2) trial court held an inadequate plea colloquy rendering plea involuntary;
(3) IAC in defense counsel’s failure to advise Petitioner of a right to withdraw his plea;
(4) Bradv violation in failing to disclose exculpatory evidence; (5) misadvice of counsel
re defense based on required knowledge of death prior to leaving the scene; (6) IAC in
failing to understand the plea deal and misinterpreting the telephone records, precluding
Petitioner from pursuing an effective trial strategy; (7) IAC in failing to advise Petitioner
that his post-arrest statements could be suppressed; (8) IAC in misadvising Petitioner
his prior arrests could be used against him at trial; (9) IAC in failing to advise Petitioner
that his blood test results could be suppressed as violation of Fourth Amendment;
(10) IAC in failing to advise Petitioner of favorable evidence that would have
corroborated his defense; (11) IAC in failing to object to discovery violation; (12) IAC in
allowing Petitioner to plead guilty to leaving the scene of a crash where no factual basis
existed; (13) IAC in failing to investigate the State’s expert witness; and (14) cumulative
error denied a fair proceeding. Ex. D1 at 162-95
Case No. 3:17cv66-LC/CAS

x>

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 6 of 80
Page 6 of 80

denied, D2 at 254-400, and a timely appeal followed.5 On November 9,
2016, the First District Court of Appeal affirmed per curiam without a written
opinion. Ex. D9. Rehearing was denied January 5, 2017. Ex. D11. The
mandate was issued January 23, 2017. Ex. D12. See Grieqo v. State, 207
So. 3d 224 (Fla. 1st DCA 2016) (table).
On January 17, 2017, Petitioner filed a pro se motion to correct illegal
sentence pursuant to Florida Rule of Criminal Procedure 3.800(a) alleging
three grounds.6 Ex. F1 at 1-5. An amended motion to correct sentence
with similar claims was filed on March 14, 2017. Ex. F1 at 52-59. The trial
court granted in part and denied in part the amended motion, removing a
special condition that permanently revoked Petitioner’s driver’s license as
to Count 2. Ex. F1 at 67-70. Petitioner appealed to the state First District
Court of Appeal, which affirmed per curiam without opinion on July 12,
2017. Ex. F4. The mandate was issued on August 31, 2017. Ex. F7. See
Grieao v. State. 228 So. 3d 555 (Fla. 1st DCA 2017) (table).

5 Petitioner appealed denial of his post-conviction claims 2, 9(b), 3, 4, 5, 12, and
13. See Ex. D6.
6 The grounds raised in the motion to correct sentence were: (1) the sentence
contains unauthorized special conditions; (2) the trial court unlawfully retained
jurisdiction through probation; and (3) the sentence was cruel and unusual in violation of
the Eighth Amendment. Ex. F1 at 1-5.
Case No. 3:17cv66-LC/CAS

■>

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 7 of 80
Page 7 of 80

On March 6, 2017, Petitioner filed a pro se amended second or
successive motion for post-conviction relief alleging four grounds.7 Ex. G1
at 31-60. The post-conviction court denied the claims on May 9, 2017. Ex.
G1 at 102-60. Petitioner filed a belated motion for rehearing, which was
dismissed, but the appellate court granted a belated appeal. Ex. G7.
Petitioner appealed the denial of the second or successive Rule 3.850
motion.8 Ex. G9. The appellate court affirmed per curiam without opinion
on November 21,2018, and the mandate was issued on December 19,
2018. Exs. G11, G12. See Grieqo v. State. 258 So. 3d 389 (Fla. 1st DCA
2018) (table).
On August 1, 2017, Petitioner filed a second Petition for Writ of
Habeas Corpus in the state First District Court of Appeal. Ex. H1. The
appeal was denied “on the merits” on August 24, 2017. Ex. H2. See
Grieqo v. State. 232 So. 3d 982 (Fla. 1st DCA 2017) (table). Petitioner’s
petition to invoke all writs/habeas corpus filed in the Florida Supreme Court
was dismissed for lack of jurisdiction on October 30, 2017. Exs. 11,12.

7 The grounds raised in the second or successive Rule 3.850 motion were:
(1) conviction for resisting a blood draw violated the Fourth Amendment; (2) newly
discovered evidence that plea was involuntary; (3) sentence violates the Eighth
Amendment prohibition against cruel and unusual punishment; and (4) no factual basis
for his guilty plea to leaving the scene of a crash. Ex. G1 at 31 -60.
8 Petitioner appealed denial of the four successive claims listed in note 7, supra.
Ex. G 9.
Case No. 3:17cv66-LC/CAS

\
l 1

, >

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 8 of 80
Page 8 of 80

Petitioner filed his Amended Petition for Writ of Habeas Corpus under
28 U.S.C. § 2254 raising ten grounds. ECF No. 7.
Analysis
Pursuant to 28 U.S.C. § 2254, as amended by the Anti-Terrorism and
Effective Death Penalty Act of 1996 (AEDPA), federal courts may grant
habeas corpus relief for persons in state custody only under certain
specified circumstances. Section 2254(d) provides in pertinent part:
An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not
be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of
the claim—
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of
the evidence presented in the State court
proceeding.
28 U.S.C. § 2254(d). See also Cullen v. Pinholster. 563 U.S. 170, 181
(2011); Gill v. Mecusker. 633 F.3d 1272, 1287 (11th Cir. 2011).
“Under the ‘contrary to’ clause, a federal habeas court may grant the
writ if the state court arrives at a conclusion opposite to that reached by this
Court on a question of law or if the state court decides a case differently

Case No. 3:17cv66-LC/CAS

I "•

,>

(

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 9 of 80
Page 9 of 80

than this Court has on a set of materially indistinguishable facts.” Williams
v. Tavlor. 529 U.S. 362, 412-13 (2000) (O’Connor, J., concurring). “Under
the ‘unreasonable application’ clause, a federal habeas court may grant the
writ if the state court identifies the correct governing legal principle from this
Court’s decisions but unreasonably applies that principle to the facts of the
prisoner’s case.” Id. at 413 (O’Connor, J., concurring).
The Supreme Court has explained that “even a strong case for relief
does not mean the state court’s contrary conclusion was unreasonable.”
Harrington v. Richter. 562 U.S. 86, 102 (2011). The Court stated:
As amended by AEDPA, § 2254(d) stops short of imposing a
complete bar on federal-court relitigation of claims already
rejected in state proceedings. ... It preserves authority to
issue the writ in cases where there is no possibility fairminded
jurists could disagree that the state court’s decision conflicts
with this Court’s precedents. It goes no further, Section
2254(d) reflects the view that habeas corpus is a “guard against
extreme malfunctions in the state criminal justice systems,” not
a substitute for ordinary error correction through appeal.
Jackson v. Virginia. 443 U.S. 307, 332, n.5 (1979) (Stevens, J.,
concurring in judgment). As a condition for obtaining habeas
corpus from a federal court, a state prisoner must show that the
state court’s ruling on the claim being presented in federal court
was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any
possibility for fairminded disagreement.
Id. at 102-03 (citation omitted). The federal court employs a “ ‘highly
deferential standard for evaluating state-court rulings, which demands that

Case No. 3:17cv66-LC/CAS

I •

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 10 of 80
Page 10 of 80

state-court decisions be given the benefit of the doubt.’ ” Pinholster. 563
U.S. at 181 (quoting Woodford v. Visciotti. 537 U.S. 19, 24 (2002)).
“Before a federal court may grant habeas relief to a state prisoner,
the prisoner must exhaust his remedies in state court.” O’Sullivan v.
Boerckel. 526 U.S. 838, 842 (1999); 28 U.S.C. § 2254(b). The Petitioner
must have apprised the state court of the federal constitutional claim, not
just the underlying facts of the claim or a “somewhat similar, state-law
claim.” Snowden v. Singletary, 135 F.3d 732, 735 (11th Cir. 1998) (quoting
Anderson v. Harless. 459 U.S. 4, 5-6 (1982)). In order for remedies to be
exhausted, “the petitioner must have given the state courts a 'meaningful
opportunity’ to address his federal claim.” Preston v. Sec’v. Fla. Deo’t of
Corn, 785 F.3d 449, 457 (11th Cir. 2015) (quoting McNair v. Campbell. 416
F.3d 1291, 1302 (11th Cir. 2005)). Petitioner must “fairly present” his claim
in each appropriate state court in order to alert the state courts to the
federal nature of the claim. Duncan v. Henry. 513 U.S. 364, 365 (1995);
Picard v. Connor. 404 U.S. 270, 275 (1971); O’Sullivan v. Boerckel. 526
U.S. 838, 845.(1999). The State must have been provided the
M (

opportunity to pass upon and correct’ alleged violations of its prisoners

federal rights.” Henry. 513 U.S. at 365 (quoting Picard. 404 U.S. at 275
(citation omitted)). “This rule of comity reduces friction between the state

Case No. 3:17cv66-LC/CAS

i

*

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 11 of 80
Page 11 of 80

and federal court systems by avoiding the ‘unseemliness]’ of a federal
district court’s overturning a state court conviction without the state courts
having had an opportunity to correct the constitutional violation in the first
instance.” O’Sullivah. 526 U.S. at 845; see also Picard. 404 U.S. at 275 (“If
the exhaustion doctrine is to prevent 'unnecessary conflict between courts
equally bound to guard and protect rights secured by the Constitution,’ it is
not sufficient merely that the federal habeas applicant has been through the
state courts.” (citation omitted)).
In regard to claims of ineffectiveness of trial counsel* the Petitioner
must have presented those claims in state court “ ‘such that a reasonable
reader would understand each claim’s particular legal basis and factual
foundation.

t Ji

Ogle v. Johnson. 488 F.3d 1364, 1368 (11 th Cir. 2007)

(citing McNair. 416 F.3d at 1302).
In order to obtain review where a claim is unexhausted and, thus,
procedurally defaulted, the Petitioner must show cause for the default and
prejudice resulting therefrom or a fundamental miscarriage of justice.
Tower v. Phillips. 7 F.3d 206, 210 (11th Cir. 1993). In order to demonstrate
cause, Petitioner must show that an “external impediment, whether it be
governmental interference or the reasonable unavailability of the factual
basis for the claim, must have prevented petitioner from raising the claim.”

Case No. 3:17cv66-LC/CAS

> >

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 12 of 80
Page 12 of 80

Alderman v. Zant, 22 F.3d 1541, 1551 (1994) (citing Murray v. Carrier. 477
U.S. 478, 488 (1986)); see also McCleskev v. Zant. 499 U.S. 467, 497
(1991) (emphasizing that the external impediment must have prevented the
petitioner from raising the claim). A federal court may grant a habeas
petition on a procedurally defaulted claim without a showing of cause or
prejudice if necessary to correct a fundamental miscarriage of justice.
Henderson v. Campbell. 353 F.3d 880, 892 (11th Cir. 2003). In order to
satisfy the miscarriage of justice exception, the Petitioner must show that a
constitutional violation has occurred that “probably resulted in a conviction
of one who is actually innocent”—that it is more likely than not that no
reasonable juror would have convicted him—which is a stronger showing
than is necessary to establish prejudice. See Schluo v. Delo. 513 U.S.
298, 327 (1995). This standard “thus ensures that petitioner’s case is truly
‘extraordinary.

i »

Id. (citing McCleskev. 499 U.S. at 494). Such a case is

“extremely rare.” Schlup. 513 U.S. at 324.
This Court’s review “is limited to the record that was before the state
court that adjudicated the claim on the merits.” Pinholster. 563 U.S. at 181.
The state court’s factual findings are entitled to a presumption of
correctness and to rebut that presumption, the Petitioner must show by
clear and convincing evidence that the state court determinations are not

Case No. 3:17cv66-LC/CAS

t

*

Case 3:I7-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 13 of 80
Page 13 of 80

fairly supported by the record. See 28 U.S.C. § 2254(e)(1). However, “it is
not the province of a federal habeas court to reexamine state-court
determinations on state-law questions” and “[i]n conducting habeas review,
a federal court is limited to deciding whether a conviction violated the
Constitution, laws, or treaties of the United States.” Estelle v. McGuire. 502
U.S. 62, 67-68 (1991). See also Swarthout v. Cooke. 562 U.S. 216, 222
(2011) (“[W]e have long recognized that ‘a “mere error of state law” is not a
denial of due process.’ ” (quoting Engle v. Isaac. 456 U.S. 107, 121, n.21

(1982))).
Further, under § 2254(d), federal courts have “no license to
redetermine credibility of witnesses whose demeanor has been observed
by the state trial court, but not by them.” Marshall v. Lonberqer. 459 U.S.
422, 434 (1983). “Determining the credibility of witnesses is the province
and function of the state courts, not a federal court engaging in habeas
review.” Consalvo v. Sec’v. Dep’t of Corr.. 664 F.3d 842, 845 (11th Cir.
2011). Credibility and demeanor of a witness are considered to be
questions of fact entitled to a presumption of correctness under the AEDPA
and the Petitioner has the burden to overcome the presumption by clear
and convincing evidence. Id.

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 14 of 80
Page 14 of 80

For claims of ineffective assistance of counsel, the United States
Supreme Court has adopted a two-part test:
First, the defendant must show that counsel’s performance was
deficient. This requires showing that counsel made errors so
serious.that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth Amendment. Second,
the defendant must show that the deficient performance
prejudiced the defense. This requires showing that counsel’s
errors were so serious as to deprive the defendant of a fair trial,
a trial whose result is reliable.
Strickland v. Washington. 466 U.S. 668, 687 (1984). To demonstrate
deficient performance, a “defendant must show that counsel’s performance
fell below an objective standard of reasonableness.” Id. at 688. Counsel is
“strongly presumed to have rendered adequate assistance and made all
significant decisions in the exercise of reasonable professional judgment.”
Burt v. Titlow. 134 S. Ct. 10, 17 (2013) (quoting Strickland. 466 U.S. at
690). Federal courts are to afford “both the state court and the defense
attorney the benefit of the doubt." Id. at 13. The reasonableness of
counsel’s conduct must be viewed as of the time of counsel’s conduct. See
Maryland v. Kulbicki. 136 S. Ct. 2, 4 (2015) (citing Strickland. 466 U.S. at
690).
To demonstrate prejudice under Strickland, a defendant “must show
that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” 466 U.S. at
\v

Case No. 3:17cv66-LC/CAS
\

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 15 of 80
Page 15 of 80

694. “A reasonable probability is a probability sufficient to undermine
confidence in the outcome.” Id. For this Court’s purposes, “[t]he question
is not whether a federal court believes the state court’s determination’
under the Strickland standard ‘was incorrect but whether that determination
was unreasonable—a substantially higher threshold.’ ” Knowles v.
Mirzavance. 556 U.S. 111, 123 (2009) (quoting Schriro v. Landriaan. 550
U.S. 465, 473 (2007)). “And, because the Strickland standard is a general
standard, a state court has even more latitude to reasonably determine that
a defendant has not satisfied that standard.” Mirza vance. 556 U.S. at 123.
It is a “doubly deferential judicial review that applies to a Strickland claim
evaluated under the § 2254(d)(1) standard.” Id. Both deficiency and
prejudice must be shown to demonstrate a violation of the Sixth
Amendment. Thus, the court need not address both prongs if the petitioner
fails to prove one of the prongs. Strickland. 466 U.S. at 697.
Ground 1: Ineffective Assistance of Appellate Counsel
Petitioner contends that appellate counsel rendered ineffective
assistance by failing to raise as fundamental error a claim that Petitioner
was denied a fair sentencing hearing. ECF No. 7 at 5. He argues that the
sentencing court, in imposing sentence after Petitioner’s plea, improperly
relied on his profession of innocence of the offense of leaving the scene of

Case No. 3:17cv66-LC/CAS

, I

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 16 of 80
Page 16 of 80

the crash made during the sentencing hearing. Id. Respondent contends
the claim is unexhausted and, thus, procedurally defaulted because
Petitioner did not raise any specific federal constitutional ground for his
ineffective assistance of appellate counsel claim in state court. ECF No. 47
at 11.
Petitioner filed a petition for writ of habeas corpus in the state First
District Court of Appeal alleging that appellate counsel rendered ineffective
assistance by not raising a fundamental error due process claim that the
court considered “constitutionally impermissible factors” at sentencing. Ex.
C1 at 7-8. Respondent is correct that Petitioner cited only state law cases
in support of his petition for writ of habeas corpus. The Eleventh Circuit
has explained:
“It is not sufficient merely that the federal habeas petitioner has
been through the state courts ... nor is it sufficient that all the
facts necessary to support the claim were before the state
courts or that a somewhat similar state-law claim was made."
Kellev fv. Sec’v for Dept, of Corn. 377 F.3d 1317, 1343-44]
(citing Picard. 404 U.S. at 275-76 and Anderson v. Harless. 459
U.S. 4, 6, 103 S. Ct. 276, 277, 74 L. Ed. 2d 3 (1982)). Rather,
in order to ensure that state courts have the first opportunity to
hear all claims, federal courts “have required a state prisoner to
present the state courts with the same claim he urges upon the
federal courts.” Picard. 404 U.S. at 275, 92 S. Ct. at 512
(citations omitted). While we do not require a verbatim
restatement of the claims brought in state court, we do require
that a petitioner presented his claims to the state court “such
that a reasonable reader would understand each claim’s
particular legal basis and specific factual foundation.” Kellev.
Case No. 3:17cv66-LC/CAS

<4

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 17 of 80
Page 17 of 80

377 F.3d at 1344-45 (citing Picard. 404 U.S. at 277, 92 S. Ct. at
513).
McNair v. Campbell. 416 F.3d 1291, 1302 (11th Cir. 2005).
In his petition in the state appellate court, Petitioner cited numerous
state cases in support of his contention. See Ex. C1 at 7-10. Petitioner did
not cite the Sixth Amendment or the Fourteenth Amendment as a basis for
relief in state court and none of the cases cited rely on the federal
Constitution or any federal case law. In fact, in one of the cases cited by a
case discussed in the petition, the Florida court relied on Art. I, § 9, of the
Florida Constitution in finding a violation of due process. See Holton v.
State, 573 So. 2d 284, 291 (Fla. 1990), cited in Bracero v. State. 10 So. 3d
664, 665 (Fla. 2d DCA 2009). Because Petitioner did not allege any
federal constitutional violation, or any federal statutory or constitutional
support, for his claim in state court that appellate counsel rendered
ineffective assistance, the claim is unexhausted and procedurally defaulted
because he may not now return to state court to exhaust the federal claim.9

9

Florida Rule of Appellate Procedure 9.141 provides that a petition alleging
ineffective assistance of appellate counsel on direct review be filed no later than four
years after the judgment and sentence become final on direct review. This occurred on
March 23, 2010. Thus, Petitioner cannot return to the state court to reassert this claim
as a federal claim.
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 18 of 80
Page 18 of 80

Regardless of the procedural default, the claim is without merit and
should be denied.10 The state appellate court adjudicated this claim on the
merits. See Grieao v. State. 81 So. 3d 615 (Fla. 1st DCA2012) (mem).
That adjudication was not contrary to any federal law or an unreasonable
application of federal law. “Claims of ineffective assistance of appellate
counsel are governed by the same standards applied to trial counsel under
Strickland.” Philmore v. McNeil, 575 F.3d 1251, 1264 (11th Cir. 2009). In
considering the reasonableness of counsel’s decision not to raise a
particular issue, the Court considers all the circumstances and gives great
deference to counsel’s judgment. Id. at 1265. Appellate counsel does not
perform deficiently for failing to raise every non-frivolous ground for appeal.
Smith v. Robbins. 528 U.S. 259, 288 (2000). To determine if prejudice has
been shown, the court must “first review the merits of the omitted claim.”
Philmore. 575 F.3d at 1264-65. Petitioner must show that there is a
reasonable probability of success on appeal. Id. at 1265.
In this case, Petitioner argues that appellate counsel should have
argued fundamental error, but he has not demonstrated that such a claim

10 Denial of unexhausted § 2254 claims on the merits is specifically anticipated
by 28 U.S.C. § 2254(b)(2), which provides that “[a]n application for a writ of habeas
corpus may be denied on the merits, notwithstanding the failure of the applicant to
exhaust remedies available in the courts of the state.”
Case No. 3:17cv66-LC/CAS

,<

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 19 of 80
Page 19 of 80

would have had a reasonable probability of success on appeal. Because
counsel made no objection to the trial court’s alleged consideration of his
claim of innocence to the charge of leaving the scene of the crash
Petitioner was required to demonstrate fundamental error in order to assert
that claim on appeal. See Hannum v. State. 13 So. 3d 132, 135 (Fla. 2d
DCA 2009) (“[F]or an error to be so fundamental that it can be raised for
the first time on appeal, the error must be basic to the judicial decision
under review and equivalent to a denial of due process.”) (citations and
quotation marks omitted).
Under Florida law, “[fundamental error occurs where a trial court
considers constitutionally impermissible factors when imposing a
sentence.” See also Yisrael v. State. 65 So. 3d 1177, 1177 (Fla. 1st DCA
2011). In Florida, at the time of Petitioner’s sentences, a sentencing court
could not consider or use against a defendant his assertion of innocence
and refusal to admit guilt. Ritter v. State. 885 So. 2d 413, 414 (Fla. 1st
DCA 2004).11 The stated reasons for the general rule prohibiting a court
from considering lack of remorse or protestation of innocence was to

11 The court in Davis v. State. 268 So. 3d 958 (Fla. 1st DCA 2019), recently
receded from the view that remorse could only be considered in mitigation, holding
instead that lack of remorse is a valid sentencing consideration. Id. at 966, review
granted Davis v. State. SC19-716, 2019 WL 2427789, at *1 (Fla. Jun. 11,2019).
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 20 of 80
Page 20 of 80

ensure the defendant is not unfairly punished for pleading not guilty and
exercising his right to trial. Corbitt v. State. 220 So. 3d 446, 450-51 (5th
DCA 2016). Where a defendant freely and voluntarily enters a plea and
admitted under oath his involvement in the crimes, consideration of lack of
remorse or failure to take responsibility has been held not to be error. Id. at
450-51. Petitioner entered a guilty plea to the charges in this case.
In Petitioner’s state habeas petition, the state appellate court denied
the claim on the merits. Thus, in rejecting this claim of ineffective
assistance of appellate counsel on the merits, the state appellate court
necessarily determined that the allegation of sentencing error was not
shown to be reversible fundamental error. Thus, even if appellate counsel
had raised the claim on direct appeal, Petitioner cannot show that it would
have had a reasonable chance of success.
This Court must defer to the state court’s interpretation of its own law:
“a state court’s interpretation of state law . . . binds a federal court sitting in
habeas corpus.” Bradshaw v. Richey. 546 U.S. 74, 76 (2005). See also
Herring v. Sec’v. Deo't of Corr., 397 F.3d 1338, 1354-55 (11th Cir. 2005)
(“The Florida Supreme Court already has told us how the issues would
have been resolved under Florida state law had [petitioner’s counsel] done
what [petitioner] argues he should have done .... It is a ‘fundamental

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 21 of 80
Page 21 of 80

principle that state courts are the final arbiters of state law, and federal
habeas courts should not second-guess them on such matters.’ ”) (quoting
Aoan v. Vauahn. 119 F.3d 1538, 1549 (11th Cir. 1997)).
Further, the state court’s adjudication of this claim was not objectively
unreasonable because the record demonstrates that the trial court did not
rely on Petitioner’s lack of remorse or failure to take responsibility in giving
him a harsher sentence. On February 11,2008, Petitioner entered a plea
of guilty to leaving the scene of the crash involving death and failing to
render aid or forthwith report the crash to police. Ex. B2 at 7 (transcript
pagination). Petitioner confirmed at the plea hearing that he would not
thereafter be able to say he did not commit the crime. Id. At the
sentencing hearing on April 23, 2008, Petitioner stated:
The officers’ statements contradict theirselves and the
store clerk statement contradicts himself. I wasn’t a mile down
the road or even two miles down the road. No one had to come
looking for me, and I never tried to run. The best thing I could
have done was go to that store. It was the only thing that I
could have done.
I didn’t call 911, because I didn’t realize what I had hit.
Even in the police reports it plainly shows I didn’t know. It didn’t
occur to me that it could have been a human being because of
the time of night it was. Yes, my behavior that night was
unacceptable; but when I was told that it was a young boy that I
hit, I went into shock. I panicked, I freaked. I was in disbelief.
I was told that you [victim’s family] wanted me to plead
guilty, so that’s what I did in hopes that I will bring comfort to
you and your family. Mr. and Mrs. Copeland, I’m sorry for
Case No. 3:17cv66-LC/CAS

»•

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 22 of 80
Page 22 of 80
making the mistake that I did I’m sorry for causing you pain.
Please understand and please know I never meant to leave
your son Gerran behind. Please forgive me.
If I had known that it was a person that I hit that night, my
actions would have been different. I would have dialed 911
immediately. I would have went back. I would have tried to
revive him. I would have did whatever I could to help him. I
was not trying to run from anything. My heart and God would
not allow it.
Ex. B3 at 225-27. The prosecutor argued that based on his guilty pleas,
Petitioner faced 46 years in prison on the three counts. Ex. B3 at 231-32.
She noted that the minimum sentence calculated on the sentencing
scoresheet was just over 12 years for the three counts. Id. at 232. The
prosecutor urged the court to impose more than the minimum sentence,
stating, “I was disappointed to hear that Mr. Griego is not admitting that he
knew he left Gerran [the victim] on the side of the road. The evidence
suggests otherwise.” Id. at 234. She went on to explain that the evidence
would show Petitioner was intoxicated when he drove over the lane of
travel and struck the victim on his bicycle. The prosecutor argued that
Petitioner drove to a convenience store not call 911 but to call a coworker.
The clerk noticed the damage to Petitioner’s work van, including a
smashed windshield, front end damage, and deployed air bags, one of
which had the victim’s blood on it. Id. at 235, 240. The prosecutor stated
that Petitioner told the store clerk that he ran off the road and hit someone,
Case No. 3:17cv66-LC/CAS

\ >

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 23 of 80
Page 23 of 80

but laughed and amended it to “I hit something.” Id. at 236. The
prosecutor noted that when the police came, Petitioner resisted them and
did not cooperate, charges to which he pleaded guilty. Id. at 243-44. The
prosecutor commented that “the fact that he continues to deny that he
knew that he left Gerran today is disturbing and further reason why he
should not receive a minimum guideline sentence.” Id. at 244.
The court sentenced Petitioner to 13 years for Count One, 8 years
consecutive for Count Two, followed by ten years probation, and 270 days
for Count Three, concurrent to the sentence in Count One. Id. at 259-61.
The judge’s reasoning for the sentences was stated in pertinent part as
follows:
The penalty that’s imposed by the Court should be
commensurate with the severity of the offense and the
circumstances that surround the offense. A trial court judge
may make a downward departure from the recommended
guidelines only when the circumstances or factors reasonably
justify or mitigate a guideline sentence.
I’ve considered the facts that were presented today, and
you also testified under oath. Your attorney had you put under
oath. Therefore I would consider those of evidence. I do not
find the evidence presented provides a reasonable basis or
justification to mitigate the guideline sentence, therefore any
downward departure is denied.
You’ve had some prior past experience with criminal
convictions including substance abuse. Some people may call
this a tragic accident. It is not an accident. You chose to drive
drunk, you chose to get behind the wheel of that car, you went
over the fog line, and you struck and killed a 17-year-old young
Case No. 3:17cv66-LC/CAS

1

i

i

«

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 24 of 80
Page 24 of 80
man. I call him a young man because he seemed to be a fine
person from everything I’ve heard today.
From what I understand from the presentence report that
young man’s body was hurled over 200 feet from the point of
impact, and you left the scene of the accident; and left that
young man to die in the dark. Now, I don’t know whether he
was dead at the time of impact or not, but his body was left on
the side of the road. And had it not been for an alert
convenience store clerk that saw the damage to your car and
called for emergency assistance - - something you did not do
although you had the opportunity to do it - - you attempted to
use the phone in the convenience store, and you then took
change to go outside and make a phone call. And unless I’m
wrong most of these phones will allow you to call 911 without
any type of coins.
Also I do not believe you went outside to make any calls
for 911. You didn’t say it, but I don’t believe it was happening
anyway, because I’m sure you would have reported something
to the store clerk rather than saying you hit somebody or
something on the road.
Ex. B3 at 257-58. Nowhere in the judge’s comments discussing the
circumstances of the offenses to which Petitioner pled guilty and his
reasons for the sentences imposed did the judge mention lack of remorse
or Petitioner’s claims of innocence of leaving the scene of the crash as a
reason to impose a more severe sentence. The court never mentioned
Petitioner’s lack of remorse or claims of innocence, but simply highlighted
the facts and circumstances of the offenses as explanation for the decision
not to mitigate the possible sentence by a downward departure or
imposition of the minimum sentence.

Case No. 3:17cv66-LC/CAS

<*

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 25 of 80
Page 25 of 80

The fact that the prosecutor stated that she was troubled by
Petitioner’s assertion of innocence and argued that it be considered when
deciding whether to impose a minimum sentence does not mean the court
improperly relied on that consideration to impose a harsher sentence. The
sentences were within the guideline range and have not been shown to
have been based on any constitutionally impermissible factors.
Because the state court considered this claim and found it to be
without merit under Florida law, and because Petitioner did not
demonstrate that the sentencing court imposed his sentence based on
consideration of constitutionally impermissible sentencing factors, he has
failed to establish that appellate counsel was ineffective for not raising a
fundamental error claim of this sentencing issue on direct appeal. And for
the same reasons, notwithstanding the procedural default of his claim of
error, he fails to demonstrate entitlement to § 2254 relief on the basis that
the trial court violated his due process rights. Relief on Ground 1 should be
denied.
Ground 2: Involuntary Plea Due to Inadequate Plea Colloquy
Petitioner contends that he was provided an inadequate plea colloquy
in that the court failed to advise him of the maximum possible sentence for
each charge as required by Florida Rule of Criminal Procedure 3.172 and

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 26 of 80
Page 26 of 80

that the error rendered his plea involuntary. ECF No. 7 at 7. He also
argues that he was not asked if anyone had made him any promises as to
what sentence he might receive. Id. at 8. Petitioner raised a similar claim
in his final amended Rule 3.850 motion where he argued that the plea
colloquy was inadequate because it failed to advise him of the maximum
possible penalty he faced and failed to inquire if he had been promised
anything, rendering the plea involuntary and subject to withdrawal. Ex. D1
at 165. The state court found the claim facially insufficient. Ex. D2 at 263.
Although the post-conviction court recognized that Petitioner was claiming
the plea was involuntary and subject to withdrawal due to an inadequate
plea colloquy, the court concluded that the claim asserted trial court error
that was not cognizable in a motion for post-conviction relief. Id. The court
also stated, “As Defendant has already been given the opportunity to
amend his motion and this claim remains facially insufficient, the Court
chooses to deny this claim with prejudice.” Id. at 263-64. Petitioner
appealed denial of this claim in the First District Court of Appeal, citing
cases that hold challenges to the voluntariness of a plea based on the
court’s failure to. properly advise the defendant of the consequences of his
plea are cognizable in Rule 3.850 proceedings. Ex. D6 at 12-13. See,
e.g., Marckman v. State. 997 So. 2d 1275, 1276 (Fla. 2d DCA 2009). Thes

Case No. 3:17cv66-LC/CAS

l

I

• *

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 27 of 80
Page 27 of 80

state appellate court affirmed denial of relief on the claim without
discussion. Ex. D9.
Petitioner argued to the state post-conviction court that the trial
court’s colloquy in accepting his guilty plea was inadequate under Florida
Rule of Criminal Procedure 3.172 and Florida case law interpreting the
provisions of the rule. Rule 3.172 requires that before accepting a plea of
nolo contendere or guilty, in order to determine that the plea is voluntary,
the judge must first determine that the defendant understands the nature of
the charge to which a plea is offered, the maximum possible penalty, and
any mandatory minimum penalty. Fla. R. Crim P. 3.172(a), (c)(1).
Respondent contends that the claim is unexhausted and procedurally
defaulted because when he raised a similar claim in state court, he failed to
allege any federal constitutional grounds in the post-conviction court and on
appeal from denial of relief. ECF No. 47 at 14-15. Notwithstanding any
failure to exhaust the claim or the trial court’s determination that the claim
was insufficiently pled, it is without merit and should be denied.
Petitioner entered an open plea to the charges after reviewing and
signing a form titled Sentencing Recommendation on February 11, 2008.
Ex. B1 at 34-37; Ex. B2. The form is also a plea agreement form, although
it indicates that Petitioner had no agreement with the State as to a

Case No. 3:17cv66-LC/CAS

I

»

f *

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 28 of 80
Page 28 of 80

sentence. Ex. B1 at 34. In the form, Petitioner confirmed by his signature
that he had read the information and understood the charges. Id. The form
stated at the top that he was to plead to DUI manslaughter, leaving the
scene of a crash involving death, resisting an officer without violence, and
careless driving (later dropped). Id. The form states the maximum
penalties for each offense, including a maximum penalty of 30 years in
prison for leaving the scene of the crash involving a death. Id. The form he
signed expressly states: “I understand that the maximum period of
imprisonment and fines, as well as any mandatory minimums that apply,
with regard to the charges to which I am entering my plea are as indicated
on page 1 of this agreement.... I have reviewed the sentencing
guidelinesapplicable to the cases to which I am entering a plea.”12 Id,
Petitioner also confirmed that he understood that by entering a plea he was
waiving, inter alia, his rights to plead not guilty; to go to trial by jury; to
present any and all defenses he may have; and to appeal all matters
relating to the judgement including guilt or innocence. Id. He confirmed
that he was entering the plea voluntarily and not due to any threats or

12 In spite of Petitioner’s confirmation in the plea agreement that he understood
the maximum penalties, he testified at the evidentiary hearing on his Rule 3.850 motion
that he did not learn of the maximum penalty until after he entered his plea. Ex. D4 at
15. He also testified at the evidentiary hearing that he realized on January 31,2008,
that he was facing a maximum total sentence of 46 years. Ex. D4 at 6.
.

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 29 of 80
Page 29 of 80

promises. Id. The form expressly stated that “[M]y attorney, the Court and
the prosecutor have not made any promises nor have I relied on any
representations as to actual time I would serve in entering this plea
agreement.” Id.
At the plea hearing, held on the same day that Petitioner signed the
plea agreement sentencing recommendation form, Petitioner was placed
under oath and testified that he had a chance to read the plea agreement
and that he signed it. Ex. B2 at 3-4. He testified he understood all the
terms of the agreement and had discussed it with his attorney, and agreed
that his attorney had discussed the “range of punishments and our options,
possible defenses in the case,” and that he was comfortable with entering
the plea of guilty. Id. at 5-6. Petitioner testified that no one had forced him
to enter the plea agreement, and that he understood all the rights he was
waiving. Id. at 5. Under Florida law, judges are not precluded from using
preprinted forms as part of the plea colloquy, as long as the colloquy
reflects that the defendant has intelligently understood the written
information. Hen Lin Lu v. State. 683 So. 2d 1110, 1112 (Fla. 4th DCA
1996). Petitioner stated under oath that he read the plea agreement, which
was signed by him that same day, and that he understood its terms. He
cannot go behind his sworn assertions in a plea colloquy. See Ezer v.

Case No. 3:17cv66-LC/CAS

*

i

*

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 30 of 80
Page 30 of 80

State, 10 So. 3d 1175 (Fla. 4th DCA 2009); Denne v. Jones. No.
5:17cv124-MCR-CJK (N.D. Fla. Dec. 17, 2018), 2018 WL 7078581, at *6-7
Report and Recommendation adopted, No. 5:17cv124-MCR-CJK, 2019 WL
267333 (N.D. Jan. 17, 2019).
At the sentencing hearing more than two months later, on April 23,
2008, the court sentenced Petitioner not to the 30-year maximum sentence
for Count Two, but to eight years in prison for leaving the scene of the
crash involving a death. Ex. B3 at 259. Petitioner did not notify the court
that he was previously unaware of the maximum possible sentence for that
offense.
To the extent petitioner challenges his plea because the colloquy did
not comply with Fla. R. Crim. P. 3.172, he fails to state a basis for federal
habeas relief because such relief is available to correct only constitutional
injury. See 28 U.S.C. § 2254(a). The Supreme Court has made clear that
a “mere error of state law” is not a denial of due process.’ ” Swarthout v.
Cooke. 562 U.S. 216, 222 (2011) (quoting Engle v. Isaac. 456 U.S. 107,
121, n.21 (1982)). “The habeas statute unambiguously provides that a
federal court may issue a writ of habeas corpus to a state prisoner only on
the ground that he is in custody in violation of the Constitution or laws or
treaties of the United States.” Swarthout. 562 U.S. at 219 (internal

Case No. 3:17cv66-LC/CAS

* 4

i

‘

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 31 of 80
Page 31 of 80

quotations and citations omitted). See also Estelle v. McGuire. 502 U.S.
62, 67-68 (1991) (holding that errors that do not infringe upon a defendant’s
constitutional rights provide no basis for federal habeas corpus relief; “[l]t is
not the province of a federal habeas court to reexamine state-court
determinations on state-law questions.”). “The writ of habeas corpus . . .
was not enacted to enforce State-created rights.” Cabberiza v. Moore. 217
F.3d 1329, 1333 (11th Cir. 2000) (citation omitted); Teiada v. Dugger. 941
F.2d 1551, 1560 (11th Cir. 1991) (“Questions of state law rarely raise
issues of federal constitutional significance, because ‘[a] stated
interpretation of its own laws provides no basis for federal habeas corpus
relief, since no question of a constitutional nature is involved.’ ”) (quoting
Carrizales v. Wainwriaht. 699 F.2d 1053 (11th Cir. 19831V
Even if Petitioner’s claim that his plea was involuntary because the
trial court failed to advise him of the maximum penalty was not
unexhausted, his claim is judged not by the requirements of Rule 3.172 but
by the federal due process standard. See Boykin v. Alabama. 395 U.S.
238, 243 (1969) (“The question of an effective waiver of a federal
constitutional right in a proceeding is of course governed by federal
standards.”). “A reviewing federal court may set aside a state court guilty
plea only for failure to satisfy due process.” Stano v. Duaaer. 921 F.2d

Case No. 3:17cv66-LC/CAS

r. <

» •

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 32 of 80
Page 32 of 80
1125, 1141 (11th Cir. 1991) (citing Bovkin. 395 U.S. at 243-44). Due
process requires, among other things, “that the defendant enter a guilty
plea that is ‘voluntary’ and that the defendant must make related waivers
'knowing[lyJ, intelligently], [and] with sufficient awareness of the relevant
circumstances and likely consequences.’ ” United States v. Ruiz. 536 U.S.
622, 629 (2002) (alterations in original) (quoting Bradv v. United States.
397 U.S. 742, 748 (1970)). “[Dispositions by guilty plea are accorded a
great measure of finality.” Blackledqe v. Allison. 431 U.S. 6& 71 (1977).
Because a prisoner often “has everything to gain and nothing to lose from
filing a collateral attack upon his guilty plea,” courts accord great deference
to a defendant’s statements during a plea colloquy and are reluctant to
allow a defendant to go behind his own sworn testimony. Id.
To satisfy the federal standard, the record must affirmatively show
that Petitioner “intelligently and understanding^” waived his constitutional
rights and had “a full understanding of what the plea connotes and of its
consequence.” Bovkin. 395 U.S. at 242-44. Based on the record in this
case, Petitioner cannot demonstrate that he was deprived of due process in
the entry of his plea or that he failed to be advised of the maximum
sentence he could receive for leaving the scene of the crash involving a
death. He affirmed under oath that he understood his plea form and all the

Case No. 3:17cv66-LC/CAS

**

* »

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 33 of 80
Page 33 of 80

information presented in it—including that he faced a possible 30-year
sentence for the offense andjhat he had not been promised anything for
entry of his guilty plea. Petitioner’s due process rights were honored in the
plea process and sentencing.
Petitioner has failed to demonstrate that the adjudication of the state
court resulted in a decision that is contrary to or involved an unreasonable
application of any clearly established Federal law, as determined by the
Supreme Court of the United States, or was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding. 28 U.S.C. § 2254(d). Relief on Ground 2 should be
denied.
Ground 3: Ineffective Assistance of Counsel Regarding Plea
Petitioner contends in Ground 3 that his defense counsel rendered
ineffective assistance for failing to advise him of his procedural right to
withdraw his plea prior to sentencing where his plea was entered based on
a “mistake or misapprehension about sentencing possibilities” or on a “false
assumption.” ECF No. 7 at 10. He argues that the mistake or assumption
was that the victim’s family was going to recommend a favorable sentence
during sentencing. Id. He raised a similar claim in his Rule 3.850 motion,
Ex. D1 at 167, and was provided an evidentiary hearing on the claim.

Case No. 3:17cv66-LC/CAS

i 't

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 34 of 80
Page 34 of 80

Petitioner testified at the hearing that his attorney told him that the
victim’s family wanted him to plead guilty and that they would “recommend
a sentence” and if he did not, they would recommend he get the maximum
46 years. Ex. D4 at 6. He said his attorney advised him the recommended
/

sentence would likely be 15 or 16 years, “which was closer to the guideline
sentence, which was 12 years.” Id. at 12. Petitioner testified he advised
his attorney several times that he did not want to plead guilty to leaving the
scene of the crash resulting in a death. Id. at 8. When he entered his plea,
the family did-not recommend a sentence, but left it to the discretion of the
court. Id. at 14. Petitioner testified that when he learned the maximum
penalty for leaving the scene was 30 years, his lawyer never advised him
he could seek to withdraw the plea before sentencing. Id. at 15, 17. He
said he told his lawyer that he would argue his innocence at sentencing,
which he did. Id. at 15-16.
Defense counsel testified at the evidentiary hearing that no
sentencing offer was ever made by the State and he never told Petitioner
there was a plea offer. Id. at 69. He did tell Petitioner that the minimum
sentence without a departure was 12 years and the maximum was 46
years. Id. at 69-70. Counsel arranged a meeting between Petitioner’s
family and the victim’s family to attempt to place Petitioner, who was also a

Case No. 3:17cv66-LC/CAS

i

4

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 35 of 80
f-.

Page 35 of 80

young man, in a more favorable light in hopes that the victim’s family would
recommend a lower sentence. Id. at 68. Counsel testified that he does not
remember the family ever saying they would recommend or agree to 15
years and he never told Petitioner that he was going to get a sentence of
15 years. Id. at 70. He said the family told him they would think about
what they would recommend. Id. Counsel testified that he actually thought
it was more beneficial if the family did not make any sentencing
recommendation. Id.
Defense counsel testified that the strategy was essentially to appeal
to the victim’s family such that they would not recommend a lengthy
sentence. He stated, “We wanted them to just soften the blow. We wanted
them to try - - we wanted to try to get them on our side as much as we
could. And we knew they were going to be upset at court, but we wanted
them to try to come in and not be harsh as what they could be to try to help
influence the judge not to give such a severe sentence.” Ex. D4 at 82.
The post-conviction court denied the claim, finding that counsel did
not guarantee that the victim’s family would recommend a specific
sentence and that counsel was not ineffective for not telling Petitioner he
could withdraw his plea when they did not make a sentencing
recommendation. Ex. D2 at 265. The court Stated, “The Court finds that

Case No. 3:17cv66-LC/CAS

*«

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 36 of 80
Page 36 of 80

counsel would not have had any reason to apprise Defendant of his “right”
to withdraw his plea as a specific sentence recommendation was never
promised.” Id. The court also noted that “according to counsel’s strategy, it
was more beneficial for the victim’s family to leave the sentence to the
discretion of the Court than to recommend a specific sentence.” Id.
Petitioner appealed denial of this claim and the First District Court of
Appeal affirmed per curiam without a written opinion. Ex. D9. See Grieao
v. State. 207 So. 3d 224 (Fla. 1st DCA 2016) (table).
Respondent contends that this claim is unexhausted and procedurally
defaulted because Petitioner failed to allege any federal constitutional
grounds in his state court proceedings. ECF No. 47 at 20-21. Respondent
is correct that, in the state courts, Petitioner cited only his procedural rights
under Florida Rule of Criminal Procedure 3.170(f), supported by state law
cases. Regardless of any procedural default, the claim is without merit and
should be denied.
Petitioner has not demonstrated that the adjudication of the state
court was objectively unreasonable or contrary to any clearly established
federal law. The post-conviction court relied on the testimony of defense
counsel, which the court found credible, that counsel did not guarantee the
family would recommend any specific sentence. Ex. D2 at 265. Credibility

Case No. 3:17cv66-LC/CAS

i

i

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 37 of 80
Page 37 of 80

of witnesses is solely the province of the state court.1 Consalvo. 664 F.3d at
845. Moreover, “[a]s a condition for obtaining habeas corpus from a federal
court, a state prisoner must show that the state court’s ruling on the claim
being presented in federal court was so lacking in justification that there
was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Richter. 562 U.S. at 102. As
noted earlier, the federal court employs a “highly deferential standard for
evaluating state-court rulings,” and the state court decisions will be given
the benefit of the doubt. Pinholster. 563 U.S. at 181.
The post-conviction court’s denial of relief was based on competent
substantial evidence which he found credible. Further, and for the same
reasons discussed in Ground 3, supra, Petitioner could not go behind the
sworn testimony that he read and understood his plea agreement, in which
he confirmed that his plea was not based on any promises. He also
confirmed that he was satisfied with the services of his attorney. Ex. B1 at
34. Representations made during the plea colloquy carry a strong
presumption of verity. See Blackledae. 431 U.S. at 73-74 (“[T]he
representations of the defendant, his lawyer, and the prosecutor at [a plea]
hearing, as well as any findings made by the judge accepting the plea,

Case No. 3:17cv66-LC/CAS

(

I

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 38 of 80
Page 38 of 80

constitute a formidable barrier in any subsequent collateral proceedings.
Solemn declarations in open court carry a strong presumption of verity.”).
Notwithstanding any failure to exhaust a constitutional claim in state
court, Petitioner has failed to demonstrate entitlement to habeas relief
under § 2254 and Ground 3 should be denied.
Ground 4: Bradv Violation/lneffective Assistance of Counsel
Petitioner contends that the State committed a Bradv13 violation in
failing to disclose photographs of the crash site taken on the night of the
crash that Petitioner argues would have supported a defense. ECF No. 7
at 12. He also argues that defense counsel rendered ineffective assistance
for failing to advise him of the existence of the photographs, and that had
they been provided to him, he would not have pled guilty.14 Id. Petitioner
raised both these arguments in the state court, although he did not cite any
federal authority or federal constitutional basis for his contention
concerning counsel failing to inform him of the existence of crime scene

13 Bradv v. Maryland. 373 U.S. 83, 87 (1963) (holding that failure to disclose
material evidence favorable to the accused violates due process). Evidence is material
if there is a reasonable probability that had the evidence been disclosed, the result of
the proceeding would have been different. Strickler v. Greene. 527 U.S. 263, 280
(1999).
14 In the alternative, Petitioner argues that his post-conviction counsel rendered
ineffective assistance by not requesting a continuance to allow for hiring a defense
expert to analyze the crash and provide a report. ECF No. 7 at 13. This claim is not
cognizable on federal habeas review. See Lambrix v Sec’v. Dep’t of Corr.. 756 F.3d
1246, 1262-63(11th Cir. 2014).
Case No. 3:17cv66-LC/CAS

!,

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 39 of 80
Page 39 of 80

photographs. See Ex. D1 at 7, 26 (motion, claim 4 and claim 10(b)); Ex.
D6 at 27-30 (initial brief). Regardless of any failure to exhaust a federal
claim concerning ineffective assistance of counsel in regard to the crime
scene photographs, both claims are without merit and should be denied.
An evidentiary hearing was held on these claims at which Petitioner
testified that he was never told there were photographs of the crash site,
Ex. B4 at 18, and that he asked his counsel for photographs of the crash
site, but “from what my attorney told me is that there were none I believe, I
guess, so he didn’t have them in his possession I guess.” Id. Petitioner
testified, “I did inquire about them, and he did advise that he didn’t have
them, that there were no - - that he had no photos showing such.” Id. at 19.
Petitioner said he received copies of some crash photos from a third party
and “that’s when I became aware of the existence of these photos.” Id. He
testified that he made a public records request to the State Attorney and
was told they had several CDs of photos, which his mother obtained and
made copies for him. Id. at 19-20. Petitioner presented an expert who
testified that he had reviewed the photographs and opined that a
reconstruction expert, had one been presented, could have been “possibly
favorable to Defendant.” Id. at

Case No. 3:17cv66-LC/CAS

i <

Case 3:17-cv-00066-LC-CAS Document 6Q Filed 07/01/19 Page 40 of 80
Page 40 of 80

Defense counsel testified at the evidentiary hearing that he did
receive copies of photographs from the State. Ex. B4 at 72. He testified
that he received over 600 photographs on CD and 240 photographs
attached to a Florida Department of Law Enforcement report. The photos
he received included photographs of the crash scene at night. Id. at 72-73,
82-83, 93. Counsel testified he shared everything that he had with
Petitioner. Id. at 73.
The post-conviction court denied the claims, concluding that
Petitioner did not prove that a Bradv violation occurred in that counsel
testified he received many photographs from the State and shared them
with Petitioner and Petitioner did not establish that the photographs he
received on CDs from the State were different than those shown to him by
counsel. Ex. D2 at 269. The court found that “all photographs were
disclosed during discovery” and that Petitioner’s unsupported claim that an
expert could use the “undisclosed” photographs to dispute the State’s
accident report failed. Id.
In addition, as Respondent points out, Bradv is not implicated at the
plea stage of a criminal proceeding. See, e.g., United States v. Ruiz. 536
U.S. 622, 629 (2002) (holding that the Constitution does not require
disclosure before entry of a guilty plea of the same useful information that it

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 41 of 80
Page 41 of 80

must disclose prior to a trial; that information relates to the fairness of a
trial, not the voluntariness of a plea). See also Young v. Florida. No.
>-

8:08cv707-T27TGW, 2011 WL 3875412, at *12 (M.D. Fla. Aug. 30, 2011)
(“[T]he Supreme Court has not extended Bradv to proceedings in which the
defendant enters a plea of guilty.”). Moreover, “[a] defendant is not entitled
to withdraw his plea merely because he discovers long after the plea has
been accepted that his calculus misapprehended the quality of the State's
case . . . .” Matthew v. Johnson. 201 F.3d 353, 369 (5th Cir. 2000) (quoting
Bradv. 397 U.S. at 757). The Supreme Court has given finality to guilty
pleas by precluding claims of constitutional deprivations occurring prior to
entry of the plea. Tollett v. Henderson. 411 U.S. 258, 267 (1973).
As to Petitioner’s claim that defense counsel rendered ineffective
assistance by failing to advise him of the crime scene photographs, the
post-conviction court concluded that counsel’s testimony was credible that
he received the photographs and shared them with Petitioner. Ex. D2 at
286. The court further concluded that prejudice was not established
because “[a]t best, Defendant presented a person who is not even an
expert in motor vehicle reconstruction to say that he thought possibly an
accident reconstruction would have been favorable to Defendant.” Id. at
287. The court found, as counsel testified, that an accident reconstruction

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 42 of 80
Page 42 of 80

would have done little if anything to refute the charge of DUI manslaughter
or leaving the scene of the crash, “considering the strong evidence in this
pase.” Id. Thus, the state court found no deficient performance and no
showing of prejudice under Strickland. The appellate court affirmed denial
of botlrthese claims without discussion. Ex. D9.
For the foregoing reasons, Petitioner has not demonstrated that the
adjudication by the state court resulted in a decision that is contrary to or
an unreasonable application of clearly established federal law as
determined by the United States Supreme Court, or that it was an
unreasonable determination of the facts in light of the state court record.
Habeas relief under § 2254 on Ground 4 should be denied.
Ground 5: Failure to Advise/Misadvice Regarding Defenses
In this ground, Petitioner contends that his defense counsel rendered
ineffective assistance prior to the plea for failing to advise him that the law
concerning the charge of leaving the scene of a crash involving a death
required that he have knowledge of the injury before he left the scene.
ECF No. 7 at 15. He also argues that counsel rendered ineffective
assistance for failing to advise him of a defense to the charge where
leaving the scene of the crash is the only way to call for assistance. Id. He
further argues that his counsel rendered ineffective assistance in advising

Case No. 3:17cv66-LC/CAS

I 1

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 43 of 80
Page 43 of 80

him to plead guilty because, in light of the circumstances of the offense and
the law, there was no factual basis for the crime. Id.
Respondent contends that although Petitioner raised similar claims in
the state court in his post-conviction claims 5 and 12, he failed to alert the
state courts of any federal constitutional grounds for the claim, rendering
the claims unexhausted. ECF No. 47 at 26-27. Notwithstanding any
procedural default, the claim is without merit and should be denied.
The postconviction court held an evidentiary hearing on this claim at
which Petitioner and defense counsel testified: The post-conviction court
subsequently denied the claim. Ex. D2 at 269-74. Petitioner asserts that
the post-conviction judge “ultimately found that Petitioner’s trial counsel did
not advise defendant of such relevant information (Order p. 20) but that the
Petitioner had no viable defense to the charge of leaving the scene of the
accident therefore counsel’s omission was not deficient (Order p. 21).’’
ECF No. 7 at 15. This mischaracterizes the post-conviction court’s
findings. After relating the testimony of both Petitioner and defense
counsel at the evidentiary hearing, the post-conviction order states:
The Court finds counsel’s and Defendant’s testimony
credible that Defendant’s position was that he did not know
that he hit a person. The Court also finds Ms. Griego’s
[Petitioner’s mother’s] testimony credible that counsel did not
discuss with her any defenses to the leaving the scene of an
accident charge. Based on the evidence before this Court, the
Case No. 3:17cv66-LC/CAS

'! «

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 44 of 80
Page 44 of 80

Court finds that Defendant did not have any viable defenses to
the leaving the scene of the accident charge. By Defendant’s
own admission at [the] evidentiary hearing, he pulled over at
the Tom Thumb store not to call 911 or law enforcement for
help, but because his van was disabled. . . . This testimony,
paired with Defendant’s statement that he hit somebody, his
laughter, and then changing his statement to say he thought he
hit something, would have only shown that Defendant was
concerned for his own welfare and not that of the victim when
he stopped at the Tom Thumb store.... As there was no
viable defense to leaving the scene of an accident given the
circumstances of this case, Defendant has failed to
demonstrate that counsel was deficient for failing to advise of
any defenses to the charge.
Ex. D2 at 273-74 (pages 20-21 of order denying post-conviction relief)
(emphasis added). Thus, the post-conviction court found only that it was
Defendant’s position that he did not know he hit someone and that under
the circumstances of the offense, including the lack of viable defense,
defense counsel was not deficient.
Petitioner alleged in state court and in this Court that counsel’s
alleged deficient advice rendered his plea involuntary. This claim is belied
by the record. In the plea form signed by Petitioner, he confirmed that he
had read the information and understood the charges. Ex. B1 at 34.
Petitioner also confirmed that he understood that by entering a plea he was
waiving, inter alia, his rights to plead not guilty; to go to trial by jury; to
present any and all defenses he may have; and to appeal all matters
relating to the judgment including guilt or innocence. Id. He confirmed that
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 45 of 80
Page 45 of 80

he was entering the plea voluntarily and not due to any threats or promises.
Id. The form expressly stated, “[M]y attorney, the Court and the prosecutor
have not made any promises nor have I relied on any representations as to
actual time I would serve in entering this plea agreement.” Id.
At the plea hearing, held on the same day that Petitioner signed the
plea agreement form, he testified under oath that he had a chance to read
the plea agreement and that he signed it. Ex. B2 at 3-4. He testified he
understood all the terms of the agreement and had discussed it with his
attorney, and agreed that his attorney had discussed the “possible
defenses in the case” and that he was comfortable with entering the plea of
guilty. Id. at 5-6. Petitioner testified that no one had forced him to enter the
plea agreement, and that he understood all the rights he was waiving. Id.
at 5. The record conclusively refutes Petitioner’s allegations that his plea
was not freely and voluntarily entered. See Salerno v. Sec’v. Dep’t of
Corn, No. 5:11-CV-402-OC-10PRL, 2014 WL 12694162, at *7 (M.D. Fla.
Sept. 10, 2014) (holding that the record of plea agreement and colloquy
refutes claim that plea was not voluntary even though defendant argued
that trial counsel told him that there was no viable defense to the charges
never informed of the elements of the crime, and never substantiated that

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 46 of 80
Page 46 of 80

there was a factual basis for the plea) (citing Gillis v. State. 807 So. 2d 204
205 (Fla. 5th DCA 2002)).
Petitioner cannot go behind the plea agreement and his sworn
testimony that he was fully informed, was waiving any defenses, and was
entering the plea voluntarily to offenses for which he agreed there was a
factual basis. Moreover, even if counsel failed to advise him of any
defenses to the charge—or advised him there were no viable defenses—
that does not render a guilty plea involuntary. The Court in United States v.
Ortiz-Sanchez. 138 F. App’x 921 (9th Cir. 2005), has explained:
[Defendant] argues that he did not enter the plea agreement
knowingly and voluntarily because, in entering the plea
agreement, he relied upon his attorney, who, Ortiz-Sanchez
maintains, rendered ineffective assistance by incorrectly
advising Ortiz-Sanchez that there were no viable defenses to
the charge.
This does not render his plea other than knowingly and
voluntarily made. See United States v. Nguyen. 235 F.3d 1179,
1183-84 (9th Cir. 2000) (rejecting the defendant’s “challenge to
the knowingness and voluntariness of his waiver [on the
ground] that his trial counsel ‘erroneously advised him that
under the law his position that he was not liable or responsible
. . . was incorrect,’ ” and holding that the defendant’s “attempt to
make an end-run around his waiver by repackaging substantive
challenges to his conviction as going to the voluntariness of his
plea would render the waiver a nullity”); United States v.
Baramdvka. 95 F.3d 840, 844 (9th Cir. 1996) (“The record
shows that [the defendant] entered into the plea agreement and
waiver of appeal knowingly and voluntarily...... That [the
defendant] may have been unaware of the fact that he had an

Case No. 3:17cv66-LC/CAS

" 4

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 47 of 80
Page 47 of 80

affirmative defense . . . does not alter this analysis.”).
Id. at 922.
Petitioner contends he would have insisted on going to trial on the
charge of leaving the scene of the crash involving a death if counsel had
advised him of the requirements of proof and possible defenses. However,
he mischaracterizes what that proof requires. He argues that counsel
failed to advise him of a defense that he had no knowledge of the injury.
However, the Standard Jury Instruction for the offense in effect at the time
Petitioner entered his plea required a jury to find, in pertinent part, that the
defendant “knew, or should have known from all of the circumstances,
including the nature of the crash, of the injury to or death of the person.”
See Fla. Std. Jury Instr. (Crim.) 28.4 (2008) (emphasis added). Thus, the
jury could have evaluated the totality of the circumstances surrounding the
crash, including the nature of the crash and conduct of the defendant, to
determine if the defendant “should have known” of the injury or death. In
his reply, Petitioner cites to a more recent decision in State v. Dorsett. 158
So. 3d 557 (Fla. 2015), and argues that Dorsett requires the State to prove
actual knowledge of the injury in order to prove a violation of section
316.027(1 )(b), Florida Statutes. ECF No. 59 at 67. However, Dorsett held
that a driver is not guilty unless he had actual knowledge that there was a

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 48 of 80
Page 48 of 80

crash and that he knew or should have known from the nature of the
accident that there was a resulting injury or death. See also Pitts v. State
227 So. 3d 674, 677 (Fla. 1st DCA 2017) (“A driver is not guilty unless he
had actual knowledge there was a crash and knew—or should have known
from the nature of the accident—that there was a resulting injury or death.”)
(citing State v. Dorsett. 158 So.3d 557, 560 (Fla. 2015).
The evidence was not in dispute that Petitioner had actual knowledge
he was involved in a crash—his airbags deployed and his windshield was
smashed. The evidence would show he did not stop to see if whatever or
whomever he hit needed assistance, but instead drove to a convenience
store. Once there, he first announced to the clerk that he had hit someone
but he did not attempt to contact law enforcement or seek medical
assistance for the victim. Even if he had been made completely aware that
the statute required proof that he had actual knowledge of the crash and
that he “knew or should have known” of an injury or death, a decision to
proceed to trial in light of the evidence cannot be assumed. The
circumstances surrounding both the crash and the entry of the plea leads to
the conclusion that, in light of the evidence that he did leave the crash
scene without stopping to determine if assistance could be rendered, there
is no reasonable probability that Petitioner would have insisted on going to

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 49 of 80
Page 49 of 80

trial. See Hill v. Lockhart. 474 U.S. 52, 59 (1985). However, a “mere
allegation” by the defendant that he would have insisted on going to trial,
although necessary, “is ultimately insufficient to entitle him to relief.” Miller
v. Champion. 262 F.3d 1066, 1072 (10th Cir; 2001). The Court in Miller
held that that defendant’s mere allegation that he would have insisted on
trial but for counsel’s errors, although necessary, is ultimately insufficient
and the Court looks to factual circumstances surrounding the plea to
determine whether the defendant would have proceeded to trial. Id. See
also Jennings v. Crosby. No. 8:05-cv-885-T-24TGW, 2006 WL 2425522, at
*8 & n.4 (M.D. Fla. Aug. 21, 2006).
Petitioner has failed to demonstrate that the adjudication of the state
court resulted in a decision that was objectively unreasonable, contrary to
or a misapplication of clearly established federal law, or an unreasonable
determination of the facts in light of the record. Habeas relief on Ground 5
should be denied.
Ground 6: Failure to Advise/Misadvice as to Evidence
Petitioner contends that his defense counsel rendered ineffective
assistance by failing to advise him or misadvising him concerning
“favorable” evidence of pay telephone records at the convenience store
that would have shown he was attempting to seek help from his employer

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 50 of 80
Page 50 of 80

because he thought he hit a sign with his work van. ECF No. 7 at 20. He
argues that his counsel could not remember if the records he had were
from the telephone inside the store or out, but that counsel believed that
because it was not a call to 911, Petitioner did not have a defense of
seeking help for the victim. Id. at 21. He also arglies that the statute does
not require him to call 911 to meet his obligation to render aid and that hjs
alerting the convenience store clerk to the crash did result in a call by the
clerk to law enforcement. Id, In a second aspect to this claim, Petitioner
argues that counsel misadvised him concerning a 12-year plea deal. Id. at
20.
Respondent contends that both these claims were unexhausted
because, but for a single footnote in the initial brief on appeal alleging that
the pay telephone records would have established a credible defense, (Ex.
D6 at 32), Petitioner otherwise abandoned his claims on appeal from denial
of relief. ECF No. 47 at 28. Regardless of any failure to alert the appellate
court to a federal claim of ineffective assistance in regard to the pay
telephone phone records or failure to advise regarding a plea offer, this
ground is without merit and should be denied.
At the evidentiary hearing on Petitioner’s post-conviction claims,
defense counsel testified that he did receive some telephone records in the

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 51 of 80
Page 51 of 80

case but could not remember if they were from the telephone in the store or
the outside pay telephone. Ex. D4 at 93. Counsel explained that
regardless of which telephone records he obtained, the problem was that
Petitioner did not use either to call law enforcement about the crash or to
obtain assistance for the victim. Instead, he was trying to call his employer
to seek help for himself. Id. at 89, 74. The post-conviction court found
counsel’s testimony credible and concluded that even if counsel had
obtained the pay telephone records showing a call or attempted call to
Petitioner’s employer, that would not have established a defense to the
charge of leaving the scene of a crash involving death. Ex. D2 at 279. The
court also found that even if the records had been obtained, Petitioner
failed to demonstrate that he would have insisted on going to trial. Id.
As to the claim that defense counsel misadvised him about a 12-year
plea offer, the post-conviction court denied that claim as well. Id. at 27879. The court noted counsel’s testimony at the evidentiary hearing that the
State never made an offer in the case. Ex. D2 at 277 (citing Ex. D4 at 69).
Counsel testified that he discussed the sentencing score sheet with
Petitioner and his mother, which indicated the minimum possible sentence
was 12 years and the maximum was 46 years. Ex. D4 at 69. He said
Petitioner may have misinterpreted the minimum possible sentence as one

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 52 of 80
Page 52 of 80

being offered by the State, but that was not an offer. Id. The post­
conviction court concluded that even if Petitioner and his mother mistakenly
believed there was a 12-year offer based on the minimum sentence shown
on the scoresheet, deficient performance by counsel was not shown. Ex.
D2 at 278. As the post-conviction court also correctly noted:
Even if the Court had found counsel mistakenly identified the
scoresheet as a twelve-year plea offer, Defendant still would
not be entitled to relief. According to the evidence before the
Court, Defendant was aware of the twelve-year plea deal
“misunderstanding” prior to his decision to enter an open plea
to the court.
Ex. D2 at 278.
Petitioner testified at the evidentiary hearing that on docket day on
January 31, 2008, prior to the entry of his plea on February 11, 2008, he
learned of the maximum possible sentence of 46 years for all the charges
and asked counsel what happened to the 12-year plea offer. Ex. D4 at 6.
He said counsel responded that “there never was a plea deal." Ex. D4 at 67. Thus, Petitioner was aware of his misunderstanding of a plea offer many
days before he entered his guilty pleas in the case. In addition to Petitioner
being advised of his misunderstanding about any plea offer prior to entry of
his plea, the plea form sentence recommendation signed by Petitioner
states on the first page that there was “No Agreement with State.” Ex. B1
at 34. Petitioner confirmed in the plea form that he had “not relied on any
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 53 of 80
/

Page 53 of 80

representations as to actual time I would serve in entering this plea if I were
to be incarcerated under the terms of the agreement.” Id. Petitioner
confirmed that the document apprised him of the maximum possible
sentences for the offense to which he will plead. Id. Thus, based on the
evidence in the state court record, the State court’s findings and
adjudication are not objectively unreasonable.
In view of the deference afforded to the state courts’ adjudication of
constitutional claims, “AEDPA erects a formidable barrier to federal habeas
relief for prisoners whose claims have been adjudicated in state court.
AEDPA requires ‘a state prisoner [to] show that the state court’s ruling on
the claim being presented in federal court was so lacking in justification that
there was an error. . . beyond any possibility for fairminded disagreement.
” Burt v. Titlow. 571 U.S. 12, 16 (2013) (quoting Richter. 562 U.S. at 103).
u i

If this standard is difficult to meet’—and it is—‘that is because it was

meant to be.’ ” Id. (quoting Richter. 562 U.S. at 102). “We will not lightly
conclude that a State’s criminal justice system has experienced the
‘extreme malfunction’ for which federal habeas relief is the remedy.” Id.
Habeas relief is not warranted if the court finds that the state court
merely applied federal law incorrectly; rather, relief is warranted only if that
application was objectively unreasonable. See Cullen v. Pinholster. 563

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 54 of 80
Page 54 of 80

U.S. 170, 202-03 (2011); Safranv v. Sec’v. Dep’t of Corr.. No. 16-12203-C,
2016 WL 10520907, at *2 (11th Cir. Dec. 27, 2016) (not reported in F.3d).
The Supreme Court has stated that unreasonableness is “a substantially
higher threshold” than whether the state court’s determination was
incorrect. Schriro. 550 U.S. at 473. “The‘contrary to’or‘unreasonable
application of standard of the AEDPA is ‘difficult to meet, because the
purpose of AEDPA is to ensure that federal habeas relief functions as a
guard against extreme malfunctions in the state criminal justice systems,
and not as a means of error correction.

> »

Safranv. 2016 WL 10520907, at

*2 (quoting Greene v. Fisher, 565 U.S. 34, 38 (2011) (quotations omitted)).
When measured against these demanding standards, Petitioner has
failed to demonstrate entitlement to relief under § 2254. Habeas relief on
Ground 6 should be denied.
Ground 7: Ineffective Assistance re Suppression of Blood Test
Petitioner contends that his defense counsel rendered ineffective
assistance for failing to advise him of the “remedy of suppression” of his
blood test results on the basis that the blood was drawn without a
warrant.15 ECF No. 7 at 23. He argues that if his counsel had advised him

15 Petitioner also mentions having argued in his Rule 3.850 motion and having
testified at the evidentiary hearing that his counsel failed to advise him of his right to
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 55 of 80
Page 55 of 80

of the remedy of suppression he would have insisted on going to trial. Id.
The record shows that when law enforcement arrived at the convenience
store after the crash, and based on the fact of a fatality, damages to
Petitioner’s van, and Petitioner’s conduct in resisting officers, the officer
determined probable cause existed to perform a blood draw. Ex. B1 at 10.
A paramedic responded to perform the blood draw but Petitioner resisted
and had to be physically restrained. Id. The blood sample showed that
Petitioner had a blood alcohol test showing alcohol content of .180 and a
second test showing . 185. Ex. D4 at 64.
. At the post-conviction evidentiary hearing, Petitioner testified that his
counsel failed to inform him that a motion to suppress could have been filed
alleging that under Florida law, he should have been advised of his right to
an independent blood test. Id. at 34. He did not request an independent
blood test from the officers at the scene. Ex. D5 at 48. He also testified
that his counsel failed to inform him of the right to have the blood draw
results suppressed due to the lack of a search warrant authorizing the test.
Id. at 35. Petitioner testified that there were no exigent circumstances to
justify the warrantless blood draw. Id.

suppression due to the fact that he was not given an opportunity for an independent
blood test under a Florida statute. ECF No. 7 at 23.
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 56 of 80
Page 56 of 80

Defense counsel testified at the evidentiary hearing that he discussed
the issue with Petitioner that he was not given an opportunity for an
independent blood test, but counsel was concerned that even if the test
results were suppressed, the State could still prove Petitioner was
intoxicated by testimony of the store clerk and others. Ex. D4 at 76.
Counsel testified the State could still present evidence of the state trooper
who would testify that Petitioner was drunk and belligerent at the scene and
the testimony of the store clerk who would testify that Petitioner came into
the store and eventually said he “hit someone,” then laughed and said he
hit “something.” Ex. D4 at 65-66, 81. Counsel testified that the ambulance
personnel would testify that Petitioner appeared intoxicated. Id. at 66.
Counsel testified that the store clerk would also testify that when
Petitioner came into the store, he stumbled around and appeared very
intoxicated, with a smell of alcohol on him. Id. at 73; Ex. B1 at 8. He was
in the store for about 15 minutes without having mentioned being involved
in a crash. Ex. D4 at 80. An officer on the scene stated that Petitioner
appeared very intoxicated. Ex. B1 at 9. Another officer who was present
reported that Petitioner appeared extremely intoxicated, with slurred
speech, and bloodshot and watery eyes. Ex. B1 at 11. Counsel was not

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 57 of 80
Page 57 of 80

asked whether he and Petitioner discussed lack of a warrant as a ground
for moving to suppress the blood draw.
The post-conviction court denied the claim, concluding that
Defendant’s testimony was not credible and that counsel’s testimony was
credible that he found no basis to move to suppress the blood draw on the
grounds that Petitioner was not offered an independent blood test because
the suppression, even if successful, would not have affected the outcome
of the case. Ex. D2 at 285. The court concluded that counsel was not
shown to have been deficient. The post-conviction court also Concluded,
erroneously, that the claim that counsel failed to advise Petitioner of the
right to seek suppression on the basis of lack of a warrant was procedurally
barred because it was not included in the Rule 3.850 motion: This is
incorrect, as the claim was included in the motion as Claim 9(b). Ex. D1 at
184. Even so, the post-conviction court went on to find that the claim was
without merit because section 316.1933, Florida Statutes, provides that an
involuntary blood draw may be taken from a suspected drunk driver when
the vehicle has caused death or serious bodily injury to another person.
Ex. D2 at 285. Section 316.1933(1 )(a), Florida Statutes, provided that
If a law enforcement officer has probable cause to believe that
a motor vehicle driven by or in the actual physical control of a
person under the influence of alcoholic beverages, any
chemical substances, or any controlled substances has caused
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 58 of 80
Page 58 of 80

the death or serious bodily injury of a human being, a law
enforcement officer shall require the person driving or in actual
physical control of the motor vehicle to submit to a test of the
person’s blood for the purpose of determining the alcoholic
content thereof or the presence of chemical substances as set
forth in s. 877.111 or any substance controlled under chapter
893. The law enforcement officer may use reasonable force if
necessary to require such person to submit to the
administration of the blood test. The blood test shall be
performed in a reasonable manner. Notwithstanding s.
316.1932, the testing required by this paragraph need not be
incidental to a lawful arrest of the person.
In 2008, when counsel was advising Petitioner prior to trial ora plea
Florida law held that section 316.1933 was not unconstitutional on its face
or as applied where the officer had probable cause to believe that the driver
had caused the death of another person and that the driver was under the
influence of alcohol. Jackson v. State. 456 So. 2d 916, 919 (Fla. 1st DCA
1984); see also State v. Mclnnis. 581 So. 2d 1370, 1373 (Fla. 5th DCA
1991) (recognizing no constitutional right not to have blood drawn for
testing by brute force and against suspect’s will); State v. Lanqsford. 816
So. 2d 136, 138-39 (Fla. 4th DCA 2002) (holding forcible blood extraction
from defendant does not violate Fourth Amendment when defendant is
under arrest for DU I provided there is probable cause to arrest defendant
for DUI, and blood is extracted in reasonable manner by medical
personnel, pursuant to medically-approved procedures).

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 59 of 80
Page 59 of 80

Petitioner relies on Schmerber v. California. 384 U.S. 757, 767
(1966), which held that a blood draw conducted at the direction of the
police is a search and seizure under the Fourth Amendment. ECF No. 7 at
23. The United States Supreme Court upheld the constitutionality of a
warrantless blood draw in Schmerber when the officer reasonably believed
that the delay involved in securing a warrant would result in the dissipation
of alcohol in a driver's blood. Id. at 772. Forty-seven years later, in
Missouri v. McNeelv. 569 U.S. 141 (2013), the Supreme Court clarified
Schmerber. holding that the metabolization of alcohol does not create a per
se exigent circumstance justifying warrantless, nonconsensual blood
testing in all DUI cases, though it is a relevant consideration in determining
if exigent circumstances exist. McNeelv. 569 U.S. at 164-65. The Florida
court in State v. Liles. 191 So. 3d 484 (Fla. 5th DCA 2016), explained that
“[ajfter McNeelv. law enforcement officers [are] no longer categorically
permitted to obtain a suspect’s blood sample without a warrant simply
because the alcohol [is] leaving the suspect’s blood stream.” Liles. 191 So.
3d at 488 (citation omitted). The court in Liles further explained:
Although we conclude that neither the consent nor exigent
circumstances exceptions applies to these cases, we
nonetheless reverse the suppression of the blood draws based
on the police officers’ good-faith reliance on section 316.1933.
The exclusionary rule is a judicially-created remedy adopted to
protect Fourth Amendment rights by deterring illegal searches
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 60 of 80
Page 60 of 80

and seizures. Davis v. United States. 564 U.S. 229, 131 S. Ct.
2419, 2426, 180 L.Ed.2d 285 (2011). It is intended to deter
police misconduct, not to remedy the prior invasion of a
defendant’s constitutional rights. Montgomery v. State. 69
So.3d 1023, 1033 (Fla. 5th DCA2011). Because the primary
purpose of the exclusionary rule is to “deter future unlawful
. police conduct,” Stone v. Powell. 428 U.S. 465, 484, 96 S. Ct.
3037, 49 L.Ed.2d 1067 (1976), the rule has not been applied in
certain circumstances, such as when an officer acts in
objectively reasonable reliance on a subsequently invalidated
statute, Illinois v. Krull. 480 U.S. 340, 355, 107 S. Ct. 1160, 94
L.Ed.2d 364 (1987).
Applying the objective standard of reasonableness mandated
by Krull to the facts presented here, we conclude that, before
McNeelv. it was reasonable for the officers to have a good-faith
belief in the constitutional validity of a warrantless blood draw
authorized by section 316.1933(1 )(a).
Id. at 489. McNeelv was decided in 2013 and Petitioner entered his plea in
2008. Counsel was not required to anticipate the changes in the law that
later indicated a blood draw required a warrant. Rambaran v. Sec’v. Deo’t
of Corn. 821 F.3d 1325, 1334 (11th Cir. 2016); United States v. Ardlev. 273
F.3d 991, 993 (11th Cir. 2001); Lynch v. State. 254 So. 3d 312, 323 (Fla.
2018) (“Furthermore, under Strickland, claims of ineffective assistance of
counsel are assessed under the law in effect at the time of the trial.”
(emphasis in original)). Accordingly, at that time counsel offered Petitioner
any advice or made any strategic decisions concerning suppression of the
blood draw results, counsel was not deficient in relying on the legality of the
blood draw without a warrant pursuant to section 316.1933(1 )(a), Florida

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 61 of 80
Page 61 of 80

Statutes, and case law upholding that statute. See also Hammill v. Inch.
No. 3:17cv 443/LAC/EMT, 2019 WL 885927, at *7-8 (N.D. Fla. Jan. 22,
2019), report and recommendation adopted, 2019 WL 885913, at *1 (N.D.
Feb. 22, 2019) (holding that at time of trial, section 316.1933 and case law
interpretations allowed warrantless blood draw; there is no reasonable
probability motion to suppress would have been granted; and trial counsel
was not required to predict how law will develop).
In view of the above, even if counsel had filed a motion to suppress
the blood test results for lack of a warrant, the claim would have had little
probability of success under Florida law because it was authorized by
section 316.1933(1 )(a), Florida Statutes. Further, as discussed in Liles, a
motion to suppress for lack of a warrant could also have been denied
based on the officer’s good faith reliance on binding precedent that allowed
for such draws. Regardless of whether counsel should have advised
Petitioner he could move to suppress the blood test results based on lack
of a warrant, Petitioner has not demonstrated that he would have insisted
on going to trial, as required by Strickland. Because of the compelling
evidence of guilt on all the charges that could be offered by the law
enforcement personnel, ambulance personnel and the store clerk
counsel’s strategy was that Petitioner take responsibility and plead guilty in

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 62 of 80
Page 62 of 80

hopes that the victim’s family would recommend a lesser sentence or stay
silent as to any harsh sentence. Counsel testified he discussed all the
evidence of guilt with Petitioner and Petitioner was in agreement with the
strategy. Ex. D4 at 84-85, 93-94.
Petitioner has not demonstrated that the denial of this claim in the
state court was contrary to or an unreasonable application of any clearly
established federal law as determined by the United States Supreme Court
at the time of his plea or was an unreasonable determination of the facts in
light of the record. Habeas relief on Ground 7 should be denied.
Ground 8: Failure to Depose State Expert
In Ground 8, Petitioner contends that defense counsel rendered
ineffective assistance prior to entry of the guilty plea by failing to depose
the State’s second proposed expert witness or advise Petitioner that the
State had a second expert. ECF No. 7 at 25. He also argues that counsel
was ineffective for failing to demand that the State comply with discovery
procedures by producing the “substance” of the new expert’s testimony. Id.
In his Rule 3.850 motion in state court, Petitioner argued that counsel
rendered ineffective assistance by failing to depose or investigate Perry
Ponder, the second reconstruction expert hired by the State, Ex. D1 at 19495, and by failing to object to the State’s failure to produce an accident

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 63 of 80
Page 63 of 80

reconstruction report from the expert. Ex. D1 at 189. An evidentiary
hearing was provided after which the post-conviction court denied the
claims. The court stated in pertinent part, “In regard to the State’s failure to
provide the reconstruction report of State witness Perry Ponder, credible
evidence was submitted at [the] evidentiary hearing that Mr. Ponder never
created a reconstruction report. The State is not obligated to produce non­
existent reports during discovery. ... As no discovery violation existed,
counsel was not deficient for failure to object to discovery violations.” Ex.
D2 at 288 (citing Ex. D4 at 39, 79).
Respondent contends that denial of Petitioner’s claim concerning
counsel’s alleged failure to obtain discovery of an accident report by
Ponder was abandoned on appeal when Petitioner appealed denial of post­
conviction relied. In his brief on appeal, Petitioner cited only the post­
conviction court’s denial of the claim that defense counsel was deficient for
failing to depose or investigate the expert. ECF No. 47 at 33. Respondent
contends that the claim regarding discovery of an accident report is
therefore unexhausted and procedurally defaulted. Regardless of any
procedural default, as explained by the post-conviction court, the claim is
without merit and should be denied. There was no accident report in
existence to be disclosed in discovery.

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 64 of 80
Page 64 of 80

The second portion of Ground 8 alleging that his defense counsel
rendered ineffective assistance was also denied by the state postconviction
court, Ex. D2 at 289-90, and denial was affirmed on appeal. Ex. D9. In
denying that claim in state court, the judge noted that Petitioner testified
that counsel did not depose Ponder to discover the substance of his
testimony and that Petitioner entered a guilty plea without knowing the
evidence against him. Ex. D2 at 290. The court noted that counsel
testified that he did not feel it was necessary to depose Ponder given the
facts of the case and that even if the circumstances of the crash were
reconstructed, given the fact of Petitioner’s intoxication and leaving the
scene of the crash, the question of the site of impact was not the true issue
in the case. Id., The postconviction court found this testimony of both
Petitioner and counsel credible, but concluded:
The Court further finds that counsel’s decision not to depose
Mr. Ponder was both reasonable and strategic, considering the
facts of this case. Defendant has provided no evidence to
show that Mr. Ponder’s deposition would have changed the
underlying facts of Defendant’s case. Defendant was
intoxicated when he struck and killed the victim and then left the
scene of the accident. Defendant is unable to demonstrate that
counsel was deficient or Defendant would not have entered a
plea if Mr. Ponder were deposed. Defendant is not entitled to
relief as to this claim.
Ex. D2 at 291. This adjudication by the post-conviction court, and
affirmance by the state First District Court of Appeal, has not been shown
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 65 of 80
Page 65 of 80

to be objectively unreasonable. It is not contrary to or an unreasonable
application of any clearly established federal law as determined by the
Supreme Court or an unreasonable determination of the facts in light of the
record. Habeas relief for Ground 8 should be denied.
Ground 9: Disproportionate Sentence
Petitioner contends that his sentence of eight years plus ten years
probation for the offense of leaving the scene of a crash involving a death
is disproportionate in violation of the Eighth Amendment and violates equal
protection. ECF No. 7 at 28. He challenges the rationality of a legislative
scheme that makes violation of section 316.027(1 )(b) subject to a
maximum sentence of 30 years while the offense of leaving the scene of a
crash resulting in injury, not death, is subject to a sentence of only five
years; and the offense of failing to render aid or information after a crash
found in section 316.062 is a non-criminal offense punishable by only a
fine. Id. at 30. He raised a similar claim in the state court in an Amended
Motion to Correct Illegal Sentence filed pursuant to Florida Rule of Criminal
Procedure 3.800(a). Ex. F1 at 54-58. Respondent contends the claim is
procedurally defaulted because the state court found the claim of
unconstitutional sentence not cognizable in a proceeding under Rule
3.800(a), citing State v. Spriggs. 754 So. 2d 84 (Fla. 4th DCA 2000). Ex.

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 66 of 80
Page 66 of 80

F1 at 68. The state appellate court affirmed dismissal of the claim without
discussion. Ex. FA. Petitioner attempted to raise a similar claim in his
second or successive Rule 3.850 motion, which motion was found untimely
and procedurally barred. Ex. G1 at 31, 102.
The Florida Fourth District Court of Appeal held in Spriggs and in
several other cases that a Rule 3.800 motion was not the proper vehicle for
challenging a sentence on constitutional grounds that the sentence was
disproportionate and violated the Eighth Amendment. Spriggs. 754 So. 2d.
at 84; State v. Smith. 360 So. 2d 21,23 (Fla. 4th DCA 1978). However,
this Court has declined to defer to the state court’s application of a
procedural bar to the Eighth Amendment claim because other Florida
courts have found that claims of an unconstitutional sentence can be raised
in a Rule 3.800(a) motion. See Owens v. Fla. Dep’t of Corr. Sec’v. No.
1:16cv254/WTH/EMT, 2018 WL 5794185, at *21 (N.D. Fla. May 1,2018j,
report and recommendation adopted, 2018 WL 5792820, at *1 (N.D. Fla.
Nov. 5, 2018).16 As this Court explained in Owens:

16 This Court in Owens explained: “However, in State v. Mancino. 714 So. 2d
429,433 (Fla. 1998), the Florida Supreme Court held that “[a] sentence that patently
fails to comport with statutory or constitutional limitations is by definition ‘illegal,’ ” and
thus may be challenged in a Rule 3.800 motion. Id. (citing Hopping v. State. 708 So. 2d
263, 265 (Fla. 1998) (‘[Wjhere it can be determined without an evidentiary hearing that
a sentence has been unconstitutionally enhanced in violation of the double jeopardy
clause, the sentence is illegal and can be declared so at any time under rule 3.800..’)). In
2014 (prior to the circuit court’s deeming Petitioner’s claim procedurally barred), the
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 67 of 80
Page 67 of 80

The Eighth Amendment prohibits the imposition of cruel and
unusual punishments. See U.S. Const, amend. VIII. “[T]he
Eighth Amendment contains a ‘narrow proportionality principle’
that ‘applies to noncapital sentences.’ ” Ewing v. California. 538
U.S. 11, 20, 123 S. Ct. 1179, 155 L. Ed. 2d 108 (2003) (quoting
Harmelin v. Michigan. 501 U.S. 957-997, 111 S. Ct. 2680, 115
L.Ed.2d 836 (1991) (Kennedy, J., concurring in part and
concurring in judgment)). A non-capital sentence violates the
Eighth Amendment only if it is grossly disproportionate to the
offense conduct. United States v. Farlev. 607 F.3d 1294, 1343
(11th Cir. 2010).
Generally, sentences within the statutory limits are neither
excessive, nor cruel and unusual under the Eighth Amendment.
See United States v. Flores. 572 F.3d 1254, 1268 (11th Cir.
2009): United States v. Moriaritv. 429 F.3d 1012. 1024 (11th
Cir. 2005). This is so because courts accord substantial
deference to the legislature, as it possesses “broad authority to
determine the types and limits of punishments for crimes.”
Solem v. Helm. 463 U.S. 277, 289, 103 S. Ct. 3001, 77 L.Ed.2d
637 (1983); see also United States v. Mozie. 752 F.3d 1271,
1290 (11th Cir. 2014). Further, the Supreme Court has held
that the mandatory nature of a sentence is irrelevant for Eighth
Amendment purposes. Harmelin. 501 U.S. at 994-995, 111 S.
Ct. 2680; id. at 1006 (Kennedy, J., concurring); see also Farlev.
607 F.3d at 1343 (the fact that a non-capital sentence is
statutorily mandated is irrelevant to the proportionality analysis).
Instead, the sentence should be evaluated as if it were imposed
by the sentencing court in the exercise of its discretion. See
Farley, 607 F.3d at 1343.
To determine if a non-capital sentence violates the Eighth
Amendment, the court first compares the crime committed to
the sentence imposed and determines whether any disparity
creates an inference of gross disproportionality. See Farlev. •
Florida Supreme Court held that a Rule 3.800(a) motion is an appropriate vehicle to
present a constitutional attack on a defendant’s sentence. See Plott v. State. 148 So.
3d 90, 95 (Fla. 2014).” Owens v. Fla. Deo’t of Corr. Sec'v. No. 1:16cv254/WTH/EMT,
2018 WL 5794185, at *21 (N.D. Fla. May 1,2018), report and recommendation
adopted, No. 1:16cv254-MW/EMT, 2018 WL 5792820 (N.D. Fla. Nov. 5, 2018).

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 68 of 80
Page 68 of 80

607 F.3d at 1344. The defendant bears the burden of making
the threshold showing of gross disproportionality. See United
States v. Johnson. 451 F.3d 1239, 1243 (11th Cir. 2006). If the
court determines that the defendant has made a sufficient
threshold showing of gross disproportionality, the court may
then compare the defendant’s sentence with sentences
imposed for other crimes in the same jurisdiction and sentences
imposed for the same crime in other jurisdictions. See Farley.
607 F.3d at 1342, 1344.
The proportionality inquiry is guided by objective factors,
including the gravity of the offense and the severity of the
punishment. See Solem, 463 U.S. at 290-91, 103 S. Ct. 3001.
The harm caused or threatened to victims or society and the
culpability of the offender are relevant to the gravity of the
offense. See id. at 292, 103 S. Ct. 3001. Successful
challenges to the proportionality of non-capital sentences are
very rare. See United States v. Flores. 572 F.3d 1254, 1268
(11th Cir. 2009).
Owens. 2018 WL 5794185, at *21-22 (footnotes omitted).
“All of these principles—the primacy of the legislature, the variety of
penological schemes, the nature of our federal system, and the
requirement that proportionality review be guided by objective factors—
inform the final one: The Eighth Amendment does not require strict
proportionality between crime and sentence. Rather, it forbids only
extreme sentences that are ‘grossly disproportionate’ to the crime.”
Harmelin v. Michigan. 501 U.S. 957, 1001 (1991) (Kennedy, J., concurring
in part and concurring in the judgment).

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 69 of 80
Page 69 of 80
Accordingly, in the present case, the factors of gravity of the offense
and harm caused by the proscribed conduct supports the finding that the
eight-year sentence Petitioner received plus probation was not grossly
disproportionate to the crime. Leaving the scene of a crash resulting in
death without stopping to render aid is a grave offense that presents a
significant risk of harm to the victim and society. The Florida legislature in
its judgment determined that it is an important public policy for the safety of
the citizens that accident victims receive medical assistance as soon as
possible. While the duty to stop and render aid is the same in crashes
involving injury and crashes involving death, the Legislature decided that
that the sanction is to be determined by the result of the crash. See State
v. Dumas. 700 So. 2d 1223, 1226 (Fla. 1997) (“This result-driven sanction
implicitly recognizes the possibility that a fleeing driver’s failure to stop and
render aid may be the reason that an injured person dies.”).
This is not one of the rare or extraordinary cases in which gross
disproportionality has been shown. The Eleventh Circuit noted in 2013 that
it has never held that a prison sentence is disproportionate. United States
v. Pizarro-Campos. 506 F. App’x 947, 950 (11th Cir. 2013) (unpublished)
(citing United States v. Farley. 607 F.3d 1294, 1343 (11th Cir. 2010)). The
United States Supreme Court has rarely held a sentence to be

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 70 of 80
Page 70 of 80

disproportionate. The “gross disproportionality principle reserves a
constitutional violation for only the most extraordinary case.” Id. Farley.
607 F.3d at 1343-44 (quoting Lockver v. Andrade. 538 U.S. 63, 77 (2003)).
Moreover, “[a] sentence that falls well below the statutory maximum penalty
may also be indicative of reasonableness.” United States v. Estrella. 518
F. App’x 822, 828 (11th Cir. 2013) (unpublished). Petitioner’s eight-year
sentence falls well below the 30-year sentence authorized by the statute for
the offense of leaving the scene of a crash involving a death and is not
grossly disproportionate considering the gravity of the offense involving
death and the purposes of the legislative scheme.
Petitioner also contends that the sentence is unconstitutional as a
violation of equal protection because there is a non-criminal statute
imposing no prison sentence that requires a driver in a crash involving
injury, death, or property damage to give information and render aid.
§ 316.062, Fla. Stat. (2007). “Where an equal protection challenge does
not allege that the challenged statute either singles out a protected class of
individuals or impinges on a fundamental right, the provision is subject to
rational-basis review.” United States v. Guizamano-Cortes. 719 F. App’x
984, 985-86 (11th Cir. 2018) (citing United States v. Camoos-Diaz. 472
F.3d 1278, 1280 (11th Cir. 2006)). “Under the rational-basis test, a law

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 71 of 80
Page 71 of 80

does not violate equal protection so long as it is rationally related to a
legitimate government interest.” Id. “To pass the rational basis test, the
legislation must have a legitimate purpose, and it must have been
reasonable for lawmakers to believe that the use of the challenged
classification would promote that purpose.” United States v. Kina. 972 F.2d
1259, 1260 (11th Cir. 1992) (per curiam). Because of the highly deferential
nature of rational basis review, legislative acts will be held unconstitutional
only in exceptional circumstances. Doe v. Moore. 410 F.3d 1337, 1345
(11th Cir. 2005). Petitioner has not demonstrated that the sentencing
provisions of section 316.027(1 )(b) have no rational basis.
The Florida Supreme Court has explained that section 316.062, the
non-criminal statute cited by Petitioner, imposes an affirmative duty on the
driver involved in a crash to stop and provide certain information and aid,
but it is section 316.027, Florida Statutes, that makes it a felony to fail to do
so. Dumas. 700 So. 2d at 1225. Section 316.062 and section 316.027,
while related, have different purposes and provide different penalties for
failure to comply depending on the conduct of the driver and the nature of
the damage. The statute criminalizes leaving the scene of a crash
involving death for those persons who fail to stop and remain at the scene
or as close as possible “until he or she has fulfilled the requirements of s.

Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 72 of 80
Page 72 of 80

316.062” and it treats those similarly situated drivers the same. Moreover,
the state has a legitimate state interest in assuring that persons who are
seriously injured.in a crash are provided assistance as soon as possible.
When a driver flees such a crash and does not meet his or her obligations
under the statutes, and the victim dies as a result of a crash, a more severe
sentence for this offense does not violate equal protection.
Petitioner has failed to demonstrate that his sentence for leaving the
scene of a crash involving death is one of the “rare” cases in which the
sentence is grossly disproportionate and unconstitutional. Nor has he
demonstrated that the state legislature, by imposing a longer sentence for
leaving the scene of a crash involving a death than it does for simply failing
to meet the requirements of section 316.062, violates his right to equal
protection. Denial of relief on this claim is not contrary to or an
unreasonable application of the Supreme Court’s clearly established law
and habeas relief on Ground 9 should be denied.
Ground 10; Warrantless Blood Draw
In his final ground, Petitioner contends that his conviction and
sentence for resisting an officer without violence should be vacated
because it violates his Fourth Amendment rights. ECF No. 7 at 32-33. He
argues that under Birchfield v. North Dakota. 136 S. Ct. 2160 (2016), he

Case No. 3:17cv66-LC/CAS

i

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 73 of 80
Page 73 of 80

may not be criminally punished for refusing to submit to a blood draw.17 Id.
at 32. Respondent contends that the claim is procedurally barred because
it was raised in Petitioner’s Amended “Second or Successive” Motion for
Postconviction Relief, Ex. G1 at 32, which was denied because Petitioner
failed to allege a fundamental right that has been held to apply
retroactively, as required by Rule 3.850(b)(2). Ex. G1 at 103. The state
appellate court affirmed denial without discussion. Ex. G211. Respondent
contends that this claim was procedurally barred under state law and is
thus procedurally barred in this proceeding due to an independent and
adequate state procedural rule. ECF No. 47 at 38-39.
Respondent also contends that the claim is not properly before the
Court in a § 2254 proceeding because Petitioner is no longer in custody for
the offense of resisting an officer without violence and Petitioner has not
provided the Court with a basis on which the claim can be reviewed. ECF
No. 47 at 40. The federal habeas statute gives the United States district
courts jurisdiction to entertain petitions for habeas relief only from persons
who are “in custody in violation of the Constitution or laws or treaties of the

17 Petitioner’s conviction for resisting an officer without violence was not for
violation of a statute making it an offense to refuse to submit to a blood draw, but was
for violation of section 843.02, Florida Statutes (2007), which made it a misdemeanor
offense to resist, obstruct, or oppose any officer in the lawful execution of any legal
duty.
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 74 of 80
Page 74 of 80

United States.” 28 U.S.C. § 2254(a). The Supreme Court has interpreted
the statutory language as requiring that the habeas petitioner be “in
custody” under the conviction or sentence under attack “at the time his
petition is filed.” Malena v. Cook. 490 U.S. 488, 490-92 (1989) (emphasis
added) (citing Carafas v. LaVallee. 391 U.S. 234, 238 (1968)).
The “in custody” requirement is jurisdictional. Stacev v. Warden.
Apalachee Corr. Inst.. 854 F.2d 401, 403 (11th Clr. 1988). To satisfy the
“in custody” requirement, “the habeas petitioner [must] be ‘in custody’
under the conviction or sentence under attack at the time [the] petition is
filed.” Malena. 490 U.S. at 490-91. The Supreme Court explained: “We
have never held .. . that a habeas petitioner may be “in custody” under a
conviction when the sentence imposed for that conviction has fully expired
at the time his petition is filed.” Id. at 491. The Court in Malena
emphasized: “While we have very liberally construed the ‘in custody’
requirement for purposes of federal habeas, we have never extended it to
the situation where a habeas petitioner suffers no present restraint from a
conviction. »18 Id. at 492.

18 Petitioner does not allege and nothing in the record suggests that Petitioner is
under any present or significant restraint on his liberty attributable to his conviction for
resisting an officer without violence. See, e.g., Krott v. Walton Cl Warden. 727 F. App’x
649, 649 (11th Cir. 2018) (unpublished). Collateral consequences, even if alleged, are
not alone sufficient to confer jurisdiction. Malenq. 490 U.S. at 491 -92. See also Van
Zant v. Fla. Parole Comm’n. 104 F.3d 325, 327 (11th Cir. 1997) (“[A] petitioner may
Case No. 3:17cv66-LC/CAS

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 75 of 80
Page 75 of 80

The record in this case shows that Petitioner was no longer “in
custody” for the conviction of resisting an officer without violence at the
time he filed his federal habeas petition. Petitioner received a sentence of
270 days in jail for the offense of resisting an officer without violence, to run
concurrent with the sentence in Count One, both of which commenced in
2008. Ex. B3 at 261. His § 2254 petition was filed in 2017. Petitioner
argues in his reply that his § 2254 claim as to the conviction for which his
sentence has expired is not barred based on the holding in Garlotte v.
Fordice. 515 U.S. 39 (1995), which held that Garlotte could bring his
habeas claim because he was serving consecutive sentences—unlike the
Petitioner in Malenq—and the conviction and sentence under challenge
was to be served before the other consecutive sentences commenced.
Garlotte. 515 U.S. at 44-45. The Court in Garlotte focused on the “core
purpose of habeas review,” noting that Garlotte’s challenge would shorten
his term of incarceration if he could prove unconstitutionality. Id. at 47.
In the present case, Griego’s 270-day sentence was concurrent with
his sentence for Count One and did not postpone the commencement of

challenge an expired conviction only if, at the time of the filing of the petition, (1) the
petitioner is incarcerated under a current sentence that (2) has been enhanced by the
expired conviction.”). There is no indication that Petitioner’s current sentence is
enhanced due to his misdemeanor conviction for resisting an officer without violence.
Case No. 3:17cv66-LC/CAS

\

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 76 of 80
Page 76 of 80

any other sentences. Thus, Garlotte does not control and this Court is
without jurisdiction to consider Petitioner’s challenges to the conviction and
expired sentence for resisting an officer without violence. See also Sweet
v. McNeil. 345 F. App’x. 480, 482 (11th Cir. 2009) (holding that Garlotte is
applicable only to consecutive sentences where invalidation of the
conviction would advance the release date; district court lacked subject
matter jurisdiction because petitioner was no longer “in custody” on the
simple battery conviction when he filed his petition; petitioner’s sentences
on the two charges ran concurrently and petitioner’s shorter sentence on
the simple battery conviction expired prior to petitioner’s filing his federal
habeas petition) (unpublished); Diaz v. State of Fla. Fourth Judicial Circuit
ex rel. Duval Cntv.. 683 F.3d 1261, 1264-65 (11th Cir. 2012) (holding that
habeas petitioner, who was currently in federal custody, was not “in
custody” pursuant to the state judgment subject to his collateral attack at
the time he filed his federal habeas petition eight months after his state
sentence fully expired; petitioner was not currently under any present
restraint attributable to his state conviction; and any grant of relief would
not serve to accelerate petitioner’s release from his present federal
confinement); Reilly v. Sec’v, Fla. Dep’t of Corr.. No. 4:18cv253-WS/GRJ
2019 WL 1302374, at *3 (N.D. Fla. Feb. 19, 2019) (dismissing for lack of

Case No. 3:17cv66-LC/CAS

\

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 77 of 80
Page 77 of 80

jurisdiction), report and recommendation adopted, 2019 WL 1302367 (N.D.
Fla. Mar. 21, 2019), appeal filed, Reilly v. State of Fla., et al.. No. 19-11948
(11th Cir. May 20, 2019).
It should also be noted that Petitioner entered a plea of guilty to the
charge of resisting an officer without violence. With limited exception not
applicable to this ground, that plea foreclosed federal review of all nonjurisdictional error prior to the plea, including constitutional error which
Petitioner argues in this ground. See Tollett v. Henderson. 411 U.S. 258,
267 (1973) (“When a criminal defendant has solemnly admitted in open
court that he is in fact guilty of the offense with which he is charged, he
may not thereafter raise independent claims relating to the deprivation of
constitutional rights that occurred prior to the entry of the guilty plea.”).
Therefore, even if the Court had jurisdiction as to this claim, it lacks merit
and should be denied.
Because the Court lacks jurisdiction to hear this claim challenging a
conviction for which Petitioner is no longer in custody, Ground 10 should be
dismissed.
Conclusion
Based on the foregoing, Petitioner Anthony Rogelio Griego is not
entitled to federal habeas relief. Accordingly, Grounds 1 through 9 of the

Case No. 3:17cv66-LC/CAS

i

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 78 of 80
Page 78 of 80

amended § 2254 petition (ECF No. 7) should be denied. Ground 10 should
be dismissed for lack of jurisdiction.
Certificate of Appealability
Rule 11(a) of the Rules Governing Section 2254 Cases in the United
States District Courts provides that “[t]he district court must issue or deny a
certificate of appealability when it enters a final order adverse to the
applicant,” and if a certificate is issued “the court must state the specific
issue or issues that satisfy the showing required by 28 U.S.C.
§ 2253(c)(2).” Rule 11(b) provides that a timely notice of appeal must still
be filed, even if the court issues a certificate of appealability.
Petitioner fails to make a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel. 529 U.S.
473, 483-84 (2000) (explaining substantial showing) (citation omitted).
Therefore, the Court should deny a certificate of appealability.
The second sentence of Rule 11(a) provides: “Before entering the
final order, the court may direct the parties to submit arguments on whether
a certificate should issue.” The parties shall make any argument as to
whether a certificate should issue by objections to this Report and
Recommendation.

Case No. 3:17cv66-LC/CAS

i

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 79 of 80
Page 79 of 80

Leave to appeal in forma pauperis should also be denied. See Fed.
R. App. P. 24(a)(3)(A) (providing that before or after notice of appeal is
filed, the court may certify appeal is not in good faith or party is not
otherwise entitled to appeal in forma pauperis).
Recommendation
It is therefore respectfully RECOMMENDED that the Court DENY
Grounds 1 through 9 of the amended § 2254 petition (ECF No. 7). It is
recommended that Ground 10 be DISMISSED for lack of jurisdiction. It
is recommended that Petitioner’s motion to conduct discovery, for financial
assistance to hire an expert, for appointment of counsel, and to supplement
the record with material not presented in the state court, ECF No. 58, be
i',-5

DENIED. It is further RECOMMENDED that a certificate of appealability be
DENIED and that leave to appeal in forma pauperis be DENIED.

i

IN CHAMBERS at Tallahassee, Florida, on July 1,2019.
si Charles A. Stampelos____________
CHARLES A. STAMPELOS
UNITED STATES MAGISTRATE JUDGE
NOTICE TO THE PARTIES
Within fourteen (14) days after being served with a copy of this
Report and Recommendation, a party may serve and file specific
written objections to these proposed findings and recommendations.
Fed. R. Civ. P. 72(b)(2). A copy of the objections shall be served upon
all other parties. A party may respond to another party’s objections
within fourteen (14) days after being served with a copy thereof. Fed.
Case No. 3:17cv66-LC/CAS

\

«

I

Case 3:17-cv-00066-LC-CAS Document 60 Filed 07/01/19 Page 80 of 80
Page 80 of 80
R. Civ. P. 72(b)(2). Any different deadline that may appear on the
electronic docket is for the Court’s internal use only and does not
control. If a party fails to object to the magistrate judge’s findings or
recommendations as to any particular claim or issue contained in a
Report and Recommendation, that party waives the right to challenge
on appeal the district court’s order based on the unobjected-to factual
and legal conclusions. See 11th Cir. R. 3-1; 28 U.S.C. § 636.

(

f
t

k

Case No. 3:17cv66-LC/CAS

